<html>
<title> - OVERSIGHT HEARING: THE NUCLEAR REGULATORY COMMISSION'S PRELIMINARY RESULTS OF THE NUCLEAR SAFETY REVIEW IN THE UNITED STATES FOLLOWING THE EMERGENCY AT THE FUKUSHIMA DAIICHI POWER PLANT IN JAPAN</title>
<body><pre>[Senate Hearing 112-950]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-950

  OVERSIGHT HEARING: THE NUCLEAR REGULATORY COMMISSION'S PRELIMINARY 
RESULTS OF THE NUCLEAR SAFETY REVIEW IN THE UNITED STATES FOLLOWING THE 
        EMERGENCY AT THE FUKUSHIMA DAIICHI POWER PLANT IN JAPAN

=======================================================================


                               JOINT HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                                AND THE

              SUBCOMMITTEE ON CLEAN AIR AND NUCLEAR SAFETY

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2011

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works
                                 
                                 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              


       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

              
                       U.S. GOVERNMENT PUBLISHING OFFICE
21-145 PDF                  WASHINGTON : 2017
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  
              
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York
       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 16, 2011

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     6
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     8
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    14
Lautenberg, Frank R., U.S. Senator from the State of New Jersey..    14
Sessions, Jeff, U.S. Senator from the State of New Jersey, 
  prepared statement.............................................   116

                               WITNESSES

Jaczko, Gregory, B., Chairman, Nuclear Regulatory Commission.....    15
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Boxer............................................    27
        Senator Baucus...........................................    37
        Senator Inhofe...........................................    44
        Senator Vitter...........................................    62
        Senator Sessions.........................................   116
Accompanied By:..................................................
Svinicki, Hon. Kristine L., Commissioner
    Responses to additional questions from Senator Boxer.........   118
Apostolakis, Hon. George, Commissioner
    Responses to additional questions from Senator Boxer.........   121
Magwood, Hon. William D., IV, Commissioner
    Responses to additional questions from Senator Boxer.........   124
Ostendorff, Hon. William C., Commissioner
    Responses to additional questions from Senator Boxer.........   127

 
  OVERSIGHT HEARING: THE NUCLEAR REGULATORY COMMISSION'S PRELIMINARY 
RESULTS OF THE NUCLEAR SAFETY REVIEW IN THE UNITED STATES FOLLOWING THE 
        EMERGENCY AT THE FUKUSHIMA DAIICHI POWER PLANT IN JAPAN

                              ----------                              


                        THURSDAY, June 16, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Sanders, Merkley, Barrasso, Alexander, Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. The Committee will 
come to order.
    Just to go over the way we are going to operate this 
morning, each of us Senators has 5 minutes to make an opening 
statement. And then we will go to the panel, and the Chairman 
will have 5 minutes and every other member three. So try to 
stick to it. There will be lots of questions. We will go back 
and forth from one side to the other. So your heads will be 
bobbing like a tennis match. But hopefully it will be as 
enjoyable as that and not too contentious.
    So let me begin. It has been over 3 months since Japan was 
hit by a devastating earthquake and tsunami. It is expected to 
take additional time before cold shutdown of all reactors at 
the Fukushima Daiichi Nuclear Power will be achieved. The 
emergency in Japan serves as an important wake-up call for the 
United States and the rest of the world. We cannot afford to 
ignore it.
    If there is one lesson to be learned, and this is the 
lesson I think is the most important, we must plan for the 
unexpected. Because as the Japanese told us, they planned for 
the expected, not for the unexpected.
    I am pleased to see that the NRC is taking initial steps to 
reevaluate current assumptions about the safety and the 
security of nuclear power plants in the U.S. in light of what 
has happened in Japan. And these are the things that I am 
pleased about. The NRC's inspectors have inspected and issued 
reports on the 105 operating nuclear reactors and their 
readiness to address power losses or damage following extreme 
events. And the NRC is in the middle of a 90-day task force 
review of its processes and regulations in light of the events 
in Japan.
    I want to talk a bit about the two nuclear plants in 
California, which I visited recently. The most recent 
inspections of California's two nuclear power plants turned up 
numerous problems that need to be corrected. Among other 
things, NRC's inspections at Diablo Canyon power plant found 
that State highways and access roads needed to reach diesel 
fuel and an alternative seawater source for cooling may be 
inaccessible after an earthquake. And hoses needed to get 
cooling water from the reservoir to the plant were blocked by a 
security fence.
    Now, I want to correct myself. The Diablo, I haven't 
visited in a while. But San Onofre, I recently visited. And as 
a matter of fact, I met one of the commissioners there, who was 
extremely helpful.
    NRC's inspections at San Onofre Generating Station, and 
this is a plant that is surrounded by millions of people within 
50 miles, what did we say, 7 million? About 7.4 million within 
50 miles. This is what you found. A lack of a written agreement 
for a fuel oil supply to support emergency diesel generators 
for more than 7 days. And you found that some firefighting 
equipment was stored in locations that could be impacted by an 
earthquake.
    Now, firefighting equipment that is stored in a place that 
can't be located, if there is an earthquake, doesn't do us any 
good.
    I have additional concerns about seismic issues at both 
California plants. Diablo Canyon has submitted its application 
to the NRC for license review. The 3D seismic studies need to 
be considered as part of the license renewal at Diablo. It is 
very important, I find it very strange that they would try to 
get a license before they have the latest information. And the 
latest information will be part of the 3D seismic study.
    And also, 3D studies should be part of NRC's review of San 
Onofre's license renewal application, once it is submitted. 
They haven't submitted it yet, as you know. And I lauded them 
for that, because I think there is more work that needs to be 
done.
    I expect the NRC to closely examine the results of these 
inspections in California and other States across the Country, 
as well as reexamine the current regulations, such as what is 
considered in the NRC's review of license renewal applications. 
And I expect the Commission to implement the task force 
recommendations. It doesn't help us to have these 
recommendations if you don't implement them. The health and 
safety of all Americans hangs in the balance.
    I applaud the Commission for making the results of its 
inspections of the nuclear power fleet available to the public 
immediately after compilation by NRC staff in May and June. I 
believe it is critical for public confidence in the safety of 
our nuclear facilities that the results of the 90-day task 
force report be available to the public as soon as it is 
compiled by NRC staff in July.
    To me, complete openness, transparency and prompt 
disclosure are vital to maintaining the Federal Government's 
credibility and the confidence of the American people. I want 
to thank all five members of the Commission for being here 
today to provide us with preliminary results of the nuclear 
review that is underway. As Chairman of this Committee, I will 
continue to provide vigorous oversight to make sure that we 
learn all we can from the Fukushima emergency. The safety of 
the American people, above all, is our No. 1 priority. I look 
forward to working with each of you to make sure that the 
United States of American has taken every appropriate 
precaution to ensure our nuclear power plants are managed in 
the safest possible manner.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. I 
appreciated especially your comments about the safety of the 
American people being a No. 1 priority. Madam Chairman, the 
storage of nuclear waste should be a top priority for Congress 
and the Administration in the wake of Japan's nuclear disaster.
    As you know, spent fuel rods stored at Fukushima 
overheated, causing explosions, fires and radiation leaks. This 
occurred when the power was knocked out and backup generators 
failed at the plant. The American people who watched the 
coverage of the nuclear crisis in Japan are looking to Congress 
and to the Nuclear Regulatory Commission to prevent similar 
instances form happening here.
    Congress took action years ago to begin addressing the 
problem of buildup of nuclear waste stored at nuclear plants 
throughout the United States. The Nuclear Waste Policy Act 
passed by Congress designated Yucca Mountain as the only 
candidate site for a national repository of nuclear waste. 
Congress has voted a number of times to retain Yucca Mountain 
as the national repository.
    Fifteen billion dollars, $15 billion has been spent on the 
project. But this Administration has seen fit to walk away from 
the project.
    As the Washington Post points out in an article entitled, 
At Yucca Mountain, ``At Yucca Mountain, money down a hole.'' 
This was in yesterday's paper, Wednesday, June 15th, 2011. At 
Yucca Mountain, money down a hole. This is what they said: 
``When Barack Obama ran for President and sought the five 
electoral votes of the swing State of Nevada, he vowed to kill 
Yucca. In early 2009,'' the article says, ``Steven Chu, Obama's 
energy secretary, announced that his department did not feel 
that Yucca was a workable option.'' The article continues: 
``The Department of Energy terminated the jobs of several 
thousand Federal workers and contractors, while hastily 
abandoning offices in Las Vegas and transferring dozens of 
truckloads of furniture, computers and other equipment to local 
schools.''
    The article states: ``The project dates back three 
decades.'' It goes on, ``It has not solved the problem of 
nuclear waste, but has succeeded in keeping fully employed 
large numbers of litigators. Is that the Administration's idea 
of job creation?''
    The end result of this saga is a five-mile long, 25-foot 
wide hole in the Nevada desert. It was meant to store America's 
nuclear waste. But instead, because of politics, it stands as a 
monument to bureaucratic waste of taxpayer dollars.
    The Nuclear Regulatory Commission, which is before us 
today, has not officially resolved this issue. During his 
opening remarks at the meeting of the NRC's Japan Task Force, 
the chairman, who is here today, stated ``I believe it is 
important that our safety review proceeds systematically and 
methodically, but with the appropriate sense of urgency given 
the important safety issues being examined.''
    I do not believe that the actions of this Administration or 
the Chairman have demonstrated the sense of urgency with regard 
to the issue of storing spent nuclear fuel. Thank you, Madam 
Chairman. I look forward to the testimony.
    Senator Boxer. Thank you.
    We are going to call on Senator Carper, because he chairs 
the subcommittee that oversees the NRC. And Senator Sanders was 
very kind to yield to him.

           OPENING STATEMENT OF HON. THOMAS CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you very, very much. Thank you, Madam 
Chair.
    I just want to come back to something that our colleague 
from Wyoming has said. You have heard me say, everything I do I 
know I can do better. I think that is true of all of us. I was 
not a member of the Congress in 1982, when the Congress voted 
basically to say we are going to have a repository, we are 
going to put it in one State. I was a Member of Congress later 
on when the vote was taken to designate Yucca Mountain in the 
State of Nevada.
    I think originally the county, and even still the county in 
which Yucca Mountain was located was a willing host for the 
repository. Since that time, the State has turned against the 
idea, and for the most pat, the elected officials, Governors 
and congressional delegation, as you know have opposed it. The 
delegation here in the Senate led for a number of years by 
Senator Reid and Senator Ennison, Democrat and Republican, have 
on a bipartisan basis strongly opposed the establishment of the 
repository.
    When I say everything I know I do I know I can do better, 
if we had to do this all over again, if we had to do this all 
over again, we should be smart enough to do actually what they 
have done in France. What they have done in France is to 
incentivize communities in that country to be repositories and 
to provide really terrific economic opportunities, job 
opportunities for the communities, and for some of the people 
who work there.
    If in this Country, we could actually have States standing 
in line to be prisons, sites for prisons, to take prisoners 
from Delaware or Tennessee or any other States, if we can do 
that and get communities to be willing to be host for inmates 
from all over this Country, we should be able to find or 
provide an incentive system so that States would willingly, 
unlike Nevada, would willing say, please, put your nuclear 
spent fuel here in our State.
    Meanwhile, we have, as you may recall, a blue ribbon 
Commission that has a lot of smart people, some of them the 
commissioners know, they have been working, they have been over 
to France to see what the French are doing in terms of 
reprocessing and recycling spent fuel. They are going to come 
back to us and say, this is what we think we should do for a 
path going forward in this Country.
    In the meantime, if you take all the spent fuel rods at 104 
nuclear power plants, my recollection, and I am going to ask 
Senator Alexander to correct me on this if I am wrong, but if 
we took all the spent fuel rods in 104 nuclear power plants 
across the Country, I think if we put them on a football field, 
they would fit on a football field maybe about 20 feet high. Is 
that about right?
    That is about right. So 104 plants is not a small amount of 
spent fuel. But for now, what the experts are telling us is we 
can safely store for 30, 40, 50, 60 years onsite the spent 
fuel. Does that mean we never need a repository, a place to 
recycle and reprocess this fuel? No. And when we are smart, I 
hope we are a lot smarter in siting those places than we were 
in siting the repository at Yucca Mountain. So there.
    Now, having said that, let me find my place here. Let me 
just say to all of you here today, thanks a lot for coming. 
Thank you for your service. We are very anxious to hear what 
you have to share with us.
    We have a great opportunity, you all have heard me say 
before, quoting Albert Einstein, in adversity lies opportunity. 
Heck of a lot of adversity in Japan, in Miyagi Prefecture with 
the terrible tragedy that they faced, also a great opportunity. 
And the great opportunity is for us and for the rest of the 
world to learn what they did wrong, so that we won't make that 
mistake in this instance.
    And we have worked, as a bunch of you know, on this 
Committee, and George Voinovich and I worked for a whole lot of 
years before that to try to establish within those 104 nuclear 
power plants what we call a culture of safety. And 
commissioners have heard me say a million times, we want to not 
only establish that culture of safety, we have established it, 
we want to strengthen it and we want to make sure that if it 
isn't perfect in terms of adhering to safety, if it isn't 
perfect, we make it better.
    And despite all the protections we have in place for 
nuclear reactors, the tragedy in Japan should serve as a clear 
warning that we can't be complacent when it comes to nuclear 
safety, and that a disaster like that could happen any time 
here as well.
    Anyway, we have asked for a comprehensive review, Senator 
Boxer and I have, and we are pleased that we are getting that. 
We are going to make sure that every precaution is being taken 
to safeguard our people from a similar nuclear incident, 
similar to that of Japan. Today I am anxious to hear the first 
readouts from the Commission on this review. We look forward to 
working with you to incorporate the right lessons across our 
nuclear fleet in this Country.
    Thank you, Madam Chair, and Senator Sanders, thank you so 
much for yielding to me.
    Senator Boxer. Thank you so much, Subcommittee Chairman 
Carper.
    And now it is Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman. First, let me 
thank, welcome the Commissioners and thank the Chairman and 
Senator Carper for having this hearing. I have said before, I 
think the more oversight hearings we have with the 
Commissioners, the better. The more Americans know about 
nuclear power, the better. Both from a safety point of view and 
how important it is to our future.
    The subject in America today is jobs. We want jobs. We have 
to have large amounts of reliable, low-cost electricity. And we 
now have to add clean to that. So it is important to have a 
hearing so that Americans know that 20 percent of all our 
electricity comes from 104 nuclear plants. It is important that 
we have hearings so that Americans know that 70 percent of our 
carbon-free, sulfur-free, nitrogen-free, mercury-free 
electricity comes from nuclear plants.
    It is important to have these hearings because it is 
important for Americans to know that there has never been a 
death at a civilian reactor in the United States, that there 
has never been a death in connection with a reactor in one of 
our 104 Navy reactors. It is important for Americans to know 
that even though Three Mile Island was our worst Nuclear 
accident in the United States at a civilian reactor, no one was 
hurt at Three Mile Island.
    It is important for Americans to know this is complex, 
these big operations, these nuclear plants. And it is important 
for them to know that we taking very seriously, especially 
those of us who can't imagine a future for the United States 
without many more nuclear reactors than we have today, that we 
are taking very seriously the importance of continuing to make 
their operation safer and safer.
    We have learned a lot from Three Mile Island, for example, 
even though no one was hurt there. The safety record is even 
better, as a result of those lessons. It will take months and 
years to learn from what happened in Fukushima. But we ought to 
do our best to do that.
    Senator Carper's comments on the repository are important. 
We both are former Governors. I had the problem of locating 
prisons, we were stuck on prisons in Tennessee when I came in. 
Nobody would take one, until I announced I only had one and 
there would be a competition for it. Then we had a line of 
people who wanted it.
    We are going to need repositories. We need to recycle used 
nuclear fuel. That means there will be even less of it. And 
then we will need to find, either reopen Yucca Mountain or find 
some other ones. We shouldn't keep collecting billions of 
dollars from ratepayers and not using it for its intended 
purpose.
    I hope we learn from this hearing more about spent fuel 
storage. We have heard from Secretary Chu, a Nobel physicist, 
who is our Energy Secretary, and we have heard from the 
Chairman, who is here today, that spent fuel can be stored 
safely onsite for up to 100 years. It is important for 
Americans to know that and to hear that from the top two 
officials in our Country who know about such things.
    But we need to bring to a close the discussion about 
whether spent fuel pools or dry cask storage or long-term 
repository is the right way to deal with the fuel that we have. 
And we need to take advantage of this distinguished panel the 
President has appointed to recycle used nuclear fuel in an even 
better way.
    We need to explore and learn from our Commissioners how the 
next generation of reactors can improve safety capabilities, 
for example, with passive technologies. We need to learn how 
the small nuclear reactors, the ones that might be 125 
megawatts and 150 instead of 1,140, how they might be a way for 
the United States to get back in the business of leading the 
world in developing a technology we invented, the peaceful use 
of atomic weapons, peaceful use of the nuclear process.
    Then I would like to know more about how the Commission 
itself functions, the Chairman's use of emergency power, the 
gathering of information about reactors. So it is very useful, 
Madam Chairman, to have all of the Commissioners here. I would 
suggest that maybe every quarter is to often, but every so 
often, either the Subcommittee or the full Committee ought to 
hear from the Commissioners, the American people ought to 
listen and be assured not just of the safety of our 104 
civilian reactors, but that we are on a track to begin to build 
more and to provide the low-cost, clean, reliable electricity 
that nuclear power does for this Country.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair. Welcome, 
Commissioners. Thanks for being here.
    Madam Chair, I want to spend a moment discussing an issue 
of great concern to the people of the State of Vermont, and 
that is the Vermont Yankee Nuclear Power Plant, which is 
located in the very southern part of our State.
    Madam Chair, Vermont Yankee is one of 23 plants in our 
Country with the same design, General Electric Mark 1, as the 
Fukushima plants that experienced partial or full meltdowns in 
Japan. As my colleagues may or may not know, the State of 
Vermont has a unique position in this Country with regard to 
nuclear power. As a result of an agreement signed between the 
State and Energy, the owner of the nuclear power plant in 
Vermont, this agreement was signed when Entergy purchased 
Vermont Yankee in 2002. Our State legislature and Public 
Utility Commission have a legal say of whether the Vermont 
Yankee plant is relicensed for operation beyond 2012, when its 
license expires. That is unique in the Country.
    The plant is nearing 40 years of age. It is my firm view 
that 40 years is enough. But that is not just my view. Far more 
importantly, the Vermont State Senate, representing the people 
of the State of Vermont, voted on a bipartisan basis 26 to 4 
not to grant an extension to Vermont Yankee. And in my view, 
that vote in fact represented the wishes of a vast majority of 
the people in our State.
    We know that Vermont Yankee has had serious problems in the 
last number of years, including a collapse of its cooling 
towers in 2007 and radioactive tritium leaks in 2005 and 2010. 
The tritium leaks came from pipes plant officials claimed, 
under oath, did not exist. Which did not, by the way, further 
the confidence of the people of the State of Vermont in 
Entergy.
    In support of the Vermont legislature, the Vermont 
congressional delegation has been clear that Entergy should 
respect Vermont's laws. We understand that Entergy's well-paid 
corporate lobbyists and lawyers have been pushing for the 
Federal Government to get involved in the lawsuit Entergy filed 
against Vermont. We have seen the class letter from Entergy's 
CEO, Wayne Leonard, who is among the best-compensated electric 
energy CEOs at $18 million a year, saying that if Vermont 
successfully defends its rights to decide whether Vermont 
Yankee is relicensed that we will see States opting out of, 
among other things, the Voting Rights Act.
    He could not be more wrong or out of touch. That is why the 
Vermont congressional delegation was heartened to learn that 
Chairman Jaczko, who I believe is a fair-minded and diligent 
public servant, even if we occasionally disagree, told 
Vermonters publicly that the NRC should not intervene in any 
legislation between Entergy and Vermont. I believe his position 
is the right one. The NRC regulates safety. That is what your 
job is. It is a difficult job. It is an important job. And in 
fact, many people in the State of Vermont think you are not 
doing that job very well.
    But the NRC is not an arbiter of political or legal 
disputes between a huge energy company like Entergy and the 
people of the State of Vermont. Frankly, that is not your 
business. You have enough on your plate to deal with the very 
complicated and important issue of maintaining safety.
    There was a story in the New York Times today of great 
concern, raising issues that maybe we are not doing a good job 
in this Country in protecting people in the event of a shutdown 
of all electric power. Pay attention to that. Do not get 
involved in telling the people of the State of Vermont what 
they should be doing or should not be doing.
    In that regard, I was extremely disappointed to learn that 
the NRC voted yesterday on whether to recommend to the Justice 
Department that the NRC take Entergy's side in this litigation 
and that the result of that vote was not public. I want to know 
today that you will make the result of that vote public. If you 
voted to have the DOJ, the Department of Justice involved, then 
at least you should tell the people of the State of Vermont how 
you voted and what that vote was. We would like the relevant 
materials associated with that vote.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    And now my Ranking Member, Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. I am going to apologize in advance to this 
Committee, this is a very significant hearing we are having 
right now. But it is also the markup in the Senate Armed 
Services Committee, and I am the second ranking there. So I 
apologize for being late.
    Let me start by thanking you and honoring your commitment 
to act on the renomination of Commissioner Ostendorff for a 
full 5-year term. Our Country is best served when we have a 
complete commission, and I am hoping this will happen soon.
    I just want to thank you for having this hearing. It has 
been over 3 months since the earthquakes and the tsunami that 
devastated Japan and resulted in the world's second largest 
nuclear accident in history. I am pleased that we will finally 
hear from all five Commissioners on the agency's actions to 
ensure the safety of our nuclear plants, based on lessons 
learned from the Fukushima accident.
    But first, I want to take a moment to acknowledge a report 
by the NRC Inspector General into the NRC Chairman Jaczko's 
conduct with regard to the Yucca Mountain license application. 
I was concerned about this very situation in 2005, when he 
appeared before this Committee for the first time, that his 
prior work in opposition to Yucca Mountain would impair his 
ability to act fairly as a Commissioner. So I asked him to 
recuse himself. His conduct has clearly damaged the credibility 
of the agency and warrants oversight hearings by this 
Committee.
    However, what I find most disconcerting in the IG's report 
is an image of a Chairman who withholds information from his 
colleagues, acts unilaterally and rules by intimidation. While 
the IG may have focused on the chairman's involvement with 
Yucca Mountain, I believe misconduct extends beyond that. This 
first became apparent to me while preparing for our last 
hearing on April 12th, when I heard that the majority was 
breaking with the Committee precedent of having a full 
Commission testify. I was surprised to learn that we would only 
hear from Chairman Jaczko because he was exercising his 
emergency powers under Section 3 of the Organization Plan of 
1980.
    Even more unbelievable was that he had not only failed to 
inform me of this decision on the last two occasions, but he 
had also failed to inform his colleagues. Furthermore, in 
exercising this emergency authority, he acted unilaterally 
without a firm legal basis, failed to keep his colleagues fully 
informed and prohibited them from entering the operations 
center where much of the agency's post-Fukushima work was 
conducted.
    These actions are strikingly similar to some of the IG's 
conclusions regarding the Chairman's conduct on Yucca Mountain. 
More importantly, he chose not to utilize the expertise of his 
fellow commissioners when confronted with the world's second 
largest nuclear accident. A true leader, when facing such 
extraordinary challenges, would marshal all resources at his 
disposal and seek out the best expertise that he can.
    That would be my expectation of any chairman responsible 
for ensuring nuclear safety. Instead, we have a chairman who, 
under statute, ``shall be governed by general policies of the 
Commission,'' and yet selectively ignores Commission 
procedures, discounting them as merely guidelines when 
questioned by the IG.
    In the nuclear industry, procedures exist to ensure nuclear 
safety. The Chairman should show the same respect for 
procedures governing his actions that he would expect from 
licensees. The public deserves nothing less.
    I thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Ranking Member, Senate Committee on Environment and Public 
Works Full Committee and Subcommittee on Clean Air and Nuclear 
Safety joint hearing entitled, ``Oversight Hearing: the Nuclear 
Regulatory Commission's Preliminary Results of the Nuclear 
Safety Review in the United States following the Emergency at 
the Fukushima Daiichi Power Plant in Japan.''
    Thursday, June 16, 2011 10 o'clock am Chairman Boxer, I'd 
like to begin by thanking you for honoring your commitment to 
act on the re-nomination of Commissioner Ostendorff for a full, 
5-year term. Our country is best served by a complete 
Commission with each member contributing their diverse views 
and acting as a collegial body. Commissioner Ostendorff's 
expertise is invaluable and given the unanimous vote in this 
Committee, I hope he will be confirmed immediately.
    I also want to thank you for having this hearing. It has 
been over 3 months since the earthquake and tsunami devastated 
Japan and resulted in the world's second largest nuclear 
accident in history. I am pleased that we will finally hear 
from all five commissioners on the agency's actions to ensure 
the safety of our nuclear plants based on lessons learned from 
the Fukushima accident.
    But first, I want to take a moment to acknowledge a report 
by the NRC Inspector General (IG) into NRC Chairman Jaczko's 
conduct with regard to the Yucca Mountain license application. 
I was concerned about this very situation in 2005 when he 
appeared before this Committee for the first time: that his 
prior work in opposition to Yucca Mountain would impair his 
ability to act fairly as a commissioner and so I asked him to 
recuse himself. His conduct has clearly damaged the credibility 
of the agency and warrants oversight hearings by this 
Committee.
    However, what I find most disconcerting in the IG's report 
is the image of a Chairman who withholds information from his 
colleagues, acts unilaterally, and rules by intimidation. While 
the IG may have focused on the Chairman's involvement with 
Yucca Mountain, I believe misconduct extends beyond that. This 
first became apparent to me while preparing for our last 
hearing, on April 12th, when I heard that the Majority was 
breaking with the Committee precedent of having the full 
commission testify. I was surprised to learn that we would only 
hear from Chairman Jaczko because he was exercising his 
emergency powers under Section 3 of the Reorganization Plan of 
1980. Even more unbelievable was that he had not only failed to 
inform me of his decision on at least two occasions, but he had 
also failed to inform his colleagues.
    Furthermore, in exercising this emergency authority, he 
acted unilaterally without a firm legal basis, failed to keep 
his colleagues fully informed, and prohibited them from 
entering the Operations Center where much of the agency's post-
Fukushima work was conducted. These actions are strikingly 
similar to some of the IG's conclusions regarding the 
Chairman's conduct on Yucca Mountain. More importantly, he 
chose not to utilize the expertise of his fellow commissioners 
when confronted with the world's second largest nuclear 
accident.
    A true leader when facing such extraordinary challenges 
would marshal all resources at his disposal and seek out the 
best expertise he can. That would be my expectation of any 
Chairman responsible for ensuring nuclear safety. Instead, we 
have a chairman who, under statute, ``SHALL BE GOVERNED BY 
GENERAL POLICIES OF THE COMMISSION'' and yet selectively 
ignores Commission procedures, discounting them as merely 
``guidelines'' when questioned by the IG. In the nuclear 
industry, procedures exist to ensure nuclear safety. The 
Chairman should show the same respect for procedures governing 
his actions that he would expect from licensees. The public 
deserves nothing less.

    Senator Boxer. Thank you. If I could just say, I am going 
to put into the record the statement made by the Chairman on 
the report. I just, there is a disagreement between the Ranking 
Member and myself and the characterization that he has put 
forward. Because my understanding clearly that the IG found 
that the actions that the Chairman took were consistent with 
the law, guidance and his authority.
    So there is just a difference here on that.
    Senator Inhofe. Sure.
    Senator Boxer. And I think that is, I have to put that in 
the record.
    [The referenced information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. And that is the first time we have ever had 
a difference.
    [Laughter.]
    Senator Boxer. I know. And it won't be the last.
    But I just feel it is important, because it was just such 
an attack. I was a little taken aback by it.
    Senator Merkley.
    Senator Merkley. Thank you, Madam Chair. I would like to 
yield my time to Senator Sanders to complete his comments.
    Senator Boxer. OK. Senator Sanders has an additional 5 
minutes.
    Senator Sanders. I am not going to take the whole 5 
minutes, and I thank my friend from Oregon very much for 
yielding.
    Madam Chair, the point I am going to stay on this morning 
is an enormously important issue for my State. In the State of 
Vermont, people have been extremely dissatisfied with the role 
that Entergy has been playing. They do not have confidence in 
that nuclear power plant, for a whole lot of very valid 
reasons.
    When Entergy purchased Vermont Yankee, an agreement was 
reached with the State that the State could be involved, and 
would be involved, as to whether or not a 40-year old plant 
would be relicensed. That was the agreement, Madam Chair. That 
is unique in America.
    And then the State legislature recently voted by a 26 to 4 
vote to say no, we do not think it is in the best interest of 
the people of Vermont to extend that contract. We want Vermont 
Yankee shut down. And in doing that, I believe they were 
reflecting the wishes of the people of our State. Vermont wants 
to move in a new way in terms of energy. We are No. 1 in the 
Country in terms of energy efficiency. We are moving 
aggressively in sustainable energy.
    Now, you may disagree with us, but that is the direction 
the State of Vermont wants to go.
    Now, the issue is, what is the role of the NRC in that 
discussion ? Is it appropriate for the NRC to get involved with 
one of the largest utility companies in the United States of 
America, Entergy, a $14 billion company, pays its CEO $18 
million a year, to get involved in a legal case between the 
State of Vermont and Entergy? Entergy wants to stay open. They 
want to make more money. I understand that. People of Vermont 
want to shut it down. I believe in that. I agree with the 
people of my own State. Why should you be involved in that?
    What disturbs me very much, and I want to pursue this 
later, is my understanding is that yesterday, by a three to two 
vote, this Commission decided to urge the Department of Justice 
to get involved in that fight. Now, I don't care what your view 
is on what Vermont Yankee should or should not be doing. In my 
very strong opinion, it is not your business to get involved in 
that fight. You have to worry about the safety issues of 
nuclear power. It is not your business to tell the people of 
Vermont that they have to keep open a nuclear power plant that 
they don't want. That is not your business.
    So I am going to pursue, during my questioning period, and 
I am going to ask each of you how you voted on that issue, I 
want to thank Chairman Jaczko, he has been public in the past 
in saying, and he is a strong advocate of nuclear power, he 
does not believe it is the NRC's business to be involved in 
that debate.
    So Madam Chair, this is an issue that is very disturbing to 
the people of the State of Vermont. We have enough on our hands 
taking on one of the large powerful utilities in America. We do 
not need the NRC to get involved in this debate.
    So I want to thank my colleague from Oregon, and I yield 
back to him.
    Senator Boxer. The remaining 2 minutes? You are welcome. 
Three minutes.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Madam Chair.
    I would just briefly note that I would like, if anyone has 
any comments about why the hydrogen, when it was vented, why it 
exploded. Obviously the venting process is intended to avoid a 
situation where the plant is damaged. Obviously that didn't 
happen in Japan with at least three hydrogen explosions.
    I also wanted to note that I think it is very important 
that a lot of research be done on different models of nuclear 
reactors, and in particular, modular systems, systems that 
employ passive measures, the types of passive measures that 
would have made it irrelevant whether power had been knocked 
out to a plant or irrelevant whether it was flooded with a 
tidal wave.
    I have a lot of doubts about nuclear power, being able to 
be competitive, by the time you take in costs, by the time you 
take into account addressing potential terror threats, natural 
disaster and human error. But I also think it is very important 
to look at all options as we wrestle with ways to generate non-
carbon power. So any comments in that vein would be helpful.
    Thank you.
    Senator Boxer. Thank you very much.
    Senator Lautenberg, we haven't heard from you.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Madam Chairman. I am 
pleased that the Nuclear Regulatory Commission is here to 
present the preliminary results of its safety review.
    Since Japan's nuclear disaster began unfolding in March, 
Americans have asked with a good deal of trepidation, could it 
happen here. This ongoing safety review is intended to give 
them the answer, and that is why we have to make sure that the 
final product is complete, comprehensive and thorough. The 
NRC's top priority has to make sure that our Country's nuclear 
facilities are safe and secure, and that means leaving no stone 
unturned during the review.
    And that is especially important to the people in my home 
State. New Jersey's four nuclear power reactors provide our 
State with half of its electricity. And one of those reactors, 
located in Oyster Creek, is the Country's oldest, and shares 
the same design as the damaged reactors in Japan.
    So we need the NRC to let us know what risks, if any, are 
present in American communities with the older nuclear 
reactors, and what we have to do to reduce these risks and 
protect the public. We also need the NRC to do a better job of 
making sure that Americans know what to do in the case of a 
nuclear emergency.
    Now, I was deeply troubled in March when our Country was 
told that American citizens in Japan should stay at least 50 
miles away from the site of the meltdown. We have had this 
discussion before. Here in the United States, the NRC's 
emergency guidelines only require plants to evacuate people to 
an area 10 miles from a plant. And it is confusing and we ought 
to not be sending mixed signals to the public. Stakes are too 
high.
    At the same time, we shouldn't lose sight of the fact that 
nuclear power has the qualities that we like to see, emissions-
free energy source, providing one-fifth of our Country's 
electricity. And we have a pretty good nuclear safety record. 
There have been few nuclear accidents and few injuries here in 
the United States. The bottom line is that nuclear power can be 
part of an energy future.
    But as the tragedies in other countries have taught us, 
nothing can be taken for granted where nuclear power is 
concerned. Japan, a world leader in technology, and it believed 
that the Fukushima plant was strong enough to withstand a worst 
case scenario. And now we know it wasn't. Likewise, Chernobyl 
demonstrated the effects of a single nuclear accident that can 
linger for generations.
    We have to pay attention to these lessons, learn from 
others' mistakes, and each one of you, as members of the 
Nuclear Regulatory Commission, has a responsibility to ask the 
hard questions, but to make sure that the American public gets 
the answers that we deserve. I have to say that I think on 
balance, a great job has been done.
    But I think as we find these new circumstances that come up 
as a surprise, when in Japan, the accident happened as it did. 
Regardless of the elements that created it, the fact of the 
matter is, we shouldn't permit it to happen.
    So Madam Chairman, I thank you for holding this hearing.
    Senator Boxer. Thank you so much, Senator.
    Now we go to our distinguished panel. We are going to start 
with the Chairman, 5 minutes, then each of you has three. Go 
right ahead, Chairman.

    STATEMENT OF HON. GREGORY B. JACZKO, CHAIRMAN, NUCLEAR 
 REGULATORY COMMISSION, ACCOMPANIED BY: THE HONORABLE KRISTINE 
 L. SVINICKI, COMMISSIONER; THE HONORABLE GEORGE APOSTOLAKIS, 
      COMMISSIONER; THE HONORABLE WILLIAM D. MAGWOOD, IV, 
    COMMISSIONER; AND THE HONORABLE WILLIAM C. OSTENDORFF, 
                          COMMISSIONER

    Mr. Jaczko. Thank you, Chairman Boxer, Ranking Member 
Inhofe, Chairman Carper and Ranking Member Barrasso and members 
of the Committee.
    On behalf of the Commission, I appreciate the opportunity 
to appear before you to provide an update on the response of 
the NRC to the nuclear emergency in Japan.
    At the current time, the Japanese utility and the Japanese 
government are still in an active accident mitigation phase at 
the Fukushima Daiichi site. Plant conditions are slowly 
stabilizing. At this time, the reactors and spent fuel pools do 
not appear to be changing in a way that creates additional 
concerns.
    Some structural conditions have recently been identified 
that are receiving increased attention, such as the structural 
integrity of the Unit 4 spent fuel pool, which is being shored 
up to strengthen its resistance to earthquakes. There are 
radioactive release paths that are continuing at various 
degrees in the three reactors that were operating at the time 
of the event.
    The Japanese utility is working to install reliable closed 
loop cooling system for the reactors and spent fuel pools, 
improving environmental conditions inside the plant and 
installing a treatment system to clean up the contaminated 
water that currently exists at the site.
    Many challenges in the recovery activities include the high 
radiation fields and humidity levels inside the reactor 
buildings, which make it challenging for the workers to 
operate, large amounts of radioactive water in the turbine 
building basements and a considerable amount of contaminated 
debris across the site.
    The rainy season is underway in Japan, and the immense 
cleanup challenges resulting from the tsunami itself add to the 
difficulties of dealing with the radioactive contamination 
area. But overall, the Japanese are certainly making 
significant progress in moving forward in what is a very 
difficult and challenging situation. On behalf of the 
Commission, we continue to express our sympathies for the 
people of Japan who are dealing with a very significant crisis.
    As you know, the decision to recommend a 50-mile radius 
evacuation of U.S. citizens near the Daiichi site has been a 
topic of much discussion. The concerns about the spent fuel 
pool in Unit 4, which have received attention recently, were 
only one element of the dynamic situation in which information 
was scarce, sketchy and uncertain.
    The more reassuring recent assessments of the situation in 
the Unit 4 spent fuel pool is countered by the confirmation of 
significant core damage to Units 1, 2 and 3, and ultimately 
does not invalidate our earlier decision. This decision was 
based on limited information and the best assessment of 
conditions as we understood them at the time. We are, however, 
continuing to reevaluate and review the 50-mile recommendation.
    Now, turning to the actions here in the United States, 
since the events of Fukushima Daiichi began to unfold in early 
March, the NRC has been relaying information to our Country's 
nuclear power plants. We issued instructions to our inspectors 
calling for immediate independent assessments of each plant's 
level of preparedness. The instructions covered extensive 
damage mitigation guidelines, station blackout and seismic and 
flooding issues, as well as severe accident management 
guidelines.
    We also issued a bulletin which was a communication to our 
licensees to provide information on a broad range of issues. 
Once receiving this information, the agency will determine 
whether additional actions are necessary.
    We have also convened a senior level task force made up of 
a number of the agency's experienced and expert staff. Their 
review is proceeding on a short-term and a longer-term 
timeframe. This task force is examining issues including 
seismic events, flooding and other natural hazards, how to 
maintain power during these types of extreme events, how to 
mitigate the potential losses of power and emergency 
preparedness.
    The time constraints of the short-term review have limited 
stakeholder involvement. But during the longer-term review we 
will engage the public, licensees and other key stakeholders to 
a greater extent. The final report will be reviewed by the 
Advisory Committee on Reactor Safeguards.
    In terms of accident prevention, we are evaluating the 
requirements and safety margins for seismic and flooding events 
and other external events that might inflict widespread damage 
to a plant and lead to an extended station blackout. In 
addition to prevention, we are re-examining effective 
mitigation strategies for severe accidents. We are also 
examining cross-cutting considerations related to a plant's 
ability to mitigate a long-term station blackout event.
    As part of our review, the NRC is also examining 
implications for emergency preparedness, especially in possible 
situations involving widespread infrastructure damage.
    [Interruption to proceedings.]
    Senator Boxer. I am sorry to interrupt you. I am sorry, we 
understand that you care about nuclear safety, but we really 
ask you to put down your signs. You could either put them down 
and stay or you can leave with the signs. It is up to you. 
Whatever you wish to do is fine with us. Oh, you are leaving. 
OK. We are sorry to lose you.
    Mr. Chairman, you have 30 seconds more.
    Mr. Jaczko. Thank you. As part of our review, as I said, 
the NRC is also examining the implications for emergency 
preparedness, especially in possible situations involving 
widespread infrastructure damage, multi-unit events at a single 
site, and long-term station blackouts. The NRC is committed to 
proceeding as openly and as transparently as possible. It is 
holding a series of three public meetings at the 30-day, 60-day 
and 90-day marks. We just had the 60-day meeting yesterday to 
discuss the progress of the near-term review.
    The third public meeting is scheduled for July 19th, when 
the 90-day report will be presented. This report will provide 
important recommendations and outline the strong vision for the 
longer-term review. It will also begin that longer-term 
component of our safety review, which we expect to be completed 
within an additional 6 months.
    Chairman Boxer, Ranking Member Inhofe, Chairman Carper, 
Ranking Member Barrasso, and members of the Committee, this 
concludes my formal testimony. Thank you for the opportunity to 
appear before you, and we would be pleased to answer any 
questions that you may have.
    [The prepared statement of Mr. Jaczko follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Madam Chairman.
    Senator Boxer. Yes?
    Senator Inhofe. Could I make a request? To accommodate my 
problem with the Armed Services Committee, Senator Barrasso has 
been kind enough to agree to take my 5 minutes in addition to 
his 5 minutes, and I have given him my questions. If we could 
do that, I would appreciate it.
    Senator Boxer. Sure, of course.
    Senator Inhofe. Thank you so much.
    Senator Boxer. Absolutely. We will miss you very much.
    OK. We are going to move along now, to each of you, for 3 
minutes each. Our next commissioner is Hon. Kristine Svinicki.
    Ms. Svinicki. Thank you, Chairman Boxer, Chairman Carper 
and Ranking Member Barrasso and members of the Committee, for 
the opportunity to appear before you today. Chairman Jaczko has 
addressed the breadth of the NRC's ongoing activities in the 
written statement he has submitted on behalf of the Commission. 
The events at Fukushima in Japan are a sober reminder that 
nuclear technology is unique and its use requires an unwavering 
commitment to nuclear safety. We must learn the lessons that 
these tragic events preset.
    The NRC has initiated a systematic review of the events in 
Japan, while maintaining its focus on the safety and security 
of nuclear materials and facilities here in the U.S. The NRC 
staff also continues its work on the many routine licensing, 
rulemaking and inspection activities before the agency. The NRC 
has been entrusted with the important missions of nuclear 
safety and security. During my service as a Commissioner, I 
have found the NRC to be an organization of dedicated safety 
professionals who are mindful of their important obligations to 
the Nation. I strive, as a member of the Commission, to enable 
them in advancing this cause.
    Thank you again for this opportunity, and I look forward to 
answering your questions.
    Senator Boxer. Thank you very much, and we move to the 
Commissioner that I was happy to meet in California, he was 
visiting the San Onofre plant when I was there. I think that 
was a very good visit. So it is an honor to welcome you back 
here, Mr. Apostolakis.
    Mr. Apostolakis. Chairman Boxer, Ranking Member Inhofe and 
members of the Committee, good morning. I appreciate the 
opportunity to appear before you today.
    I will summarize my impressions of the Fukushima events to 
date as follows. First, the performance of the NRC staff. I 
have been a commissioner a little over a year now. During that 
time, as well as during my 15 years as a member of the NRC's 
Advisory Committee on Reactor Safeguards, I had plenty of 
opportunities to interact with the NRC staff at all levels.
    I have always been impressed by their technical excellence 
and dedication to our mission of protecting public health and 
safety. Our team in Japan confirmed what I already knew. I am 
told that both the U.S. Ambassador in Japan and the Japanese 
government have great respect for our team and its advice on 
technical matters. I am proud of the NRC staff and honored to 
be an NRC commissioner.
    Second, the value of conservative decisionmaking. The 
plants at Fukushima were subjected to incredibly destructive 
natural forces exceeding the plant's design limits without 
reported acute health effects resulting from radiation 
exposure. In my view, this reflects at least in part the 
conservatism built into nuclear reactor designs in terms of 
safety margins. This is a valuable lesson for me as I consider 
the application of conservatism in our regulatory family.
    Third, the importance of decisionmaking during emergencies. 
The terrorist events of September 11th, 2001, and the aftermath 
of the Katrina Hurricane, had already brought the issues 
related to emergency preparedness to the forefront in this 
Country. The Fukushima accident demonstrated once again the 
need for a clearly defined decisionmaking process during 
emergencies.
    Fourth, a lesson in humility. There have been numerous 
safety studies of light water reactors worldwide. I believe 
that, as a community of safety analysts, we were pretty 
confident that there would be no new surprises. Fukushima has 
challenged that belief. We must retain a questioning attitude 
and ensure that confidence does not translate into complacency.
    Thank you, Chairman Boxer.
    Senator Boxer. Thank you for those remarks.
    We welcome Commissioner Magwood.
    Mr. Magwood. Thank you, Chairman Boxer. Thank you, Senator 
Carper and Senator Barrasso. It is a pleasure to be here this 
morning to speak to you about these important issues.
    The vital importance of understanding and responding 
appropriately to the lessons of Fukushima weighs heavily on the 
minds of all who serve on the Nuclear Regulatory Commission. 
Also, may I add that we continue to send our best wishes to the 
people of Japan, as they continue the hard work of recovering 
from the March 11th earthquake.
    NRC is a learning organization. We have and will continue 
to learn from Fukushima. That said, I recognize it will take 
months and possibly years before all the technical facts 
associated with the events of Fukushima are fully assessed. 
While we will learn much from a complete understanding of what 
happened to the plant and its systems after it was battered by 
the earthquake and tsunami, we know enough today to review the 
nuclear regulatory framework of the United States with a 
critical, post-Fukushima eye. From what we know now, I believe 
that we will need to make some changes in a variety of areas.
    It is our responsibility to take new knowledge and new 
perspectives and review our regulatory framework. I also 
believe that the regulated community takes safety seriously and 
is stepping up to its responsibility to preemptively identify 
safety issues in the aftermath of Fukushima.
    While, as the staff reported to us yesterday, we remain 
quite confident in the safety of all U.S. nuclear power plants 
and also in our overall approach to assure safety into the 
future, there may be opportunities to improve defense in depth. 
If those opportunities exist and enhance safety, we should 
seize them.
    As our efforts proceed over the coming months, I believe a 
strong role for experts and stakeholders outside of the NRC 
will be essential. Many observers have raised important and 
challenging questions, and I believe we should engage them 
directly to assure that our review benefits from their 
insights. This includes the full engagement of the Advisory 
Committee on Reactor Safeguards.
    As smart and talented as the NRC staff is, even they may 
not have all the answers. We will, as we have always done, 
benefit from the open process. Once again, thank you for 
holding today's hearing. I look forward to working with this 
Committee as we go forward, and I look forward to your 
questions.
    Senator Boxer. Thank you. And now, Commissioner Ostendorff.
    Mr. Ostendorff. Thank you, Madam Chairman. I also thank 
Chairman Carper, Ranking Member Barrasso, for the chance to be 
here today.
    I am fully supportive of the Task Force the Commission 
chartered back in March, and I am committed to a systematic, 
methodical review of the events of Fukushima. I know that if we 
need to make changes, and I am sure there are some changes we 
will need to make, the Commission will.
    The full Commission received a public briefing yesterday in 
Rockville on what the Task Force has learned so far in the 
near-term review. The Task Force informed the Commission of its 
results to date, including the results of our inspections at 
all 104 reactors, and several key themes in the application of 
our defense in depth safety philosophy. Those key themes 
include assessment of protection of equipment from external 
hazards, mitigation strategies to prevent core damage or spent 
fuel damage, emergency preparedness and last, how to apply our 
regulations in a consistent and coherent manner.
    Concurrent with our near-term review efforts, the NRC's 
highly qualified resident inspectors have also inspected 
licensee implementation of severe accident management 
guidelines around the Country to ensure that our licensees are 
able to deal with the loss of power or big damage event to 
their particular reactor sites. The findings from these 
inspections will help to guide our decisions going forward with 
respect to any warranted regulatory changes.
    For the longer term, our review efforts will focus on other 
key areas related to the Fukushima incident. These areas 
include, among others, station blackout, acts of mitigation, 
spent fuel pool safety and emergency preparedness. I will echo 
Commissioner Magwood's comments of the importance of the 
Advisory Committee on reactor safeguards for an independent 
technical review.
    I am looking forward to evaluating the NRC staff's 
recommendations in areas where improvements can be made to our 
regulatory framework. Congress and the public can be assured 
that our findings will be brought to light in an open and 
transparent fashion. I appreciate the Committee's oversight 
role. I look forward to your questions.
    Senator Boxer. Thank you very much.
    Before I start my questions, I want to respond on Yucca. 
Because it was important to note that we found out that through 
a GAO report that Republicans asked for that they terminated, 
the DOE terminated the project, because it was not a workable 
option, and that there were benefits associated with this. Now, 
that is a report that was requested by the Republicans in the 
House.
    And some of the past problems we had with Yucca, the risk 
that water will seep into the repository and cause the casks 
holding high level radioactive waste to rust and break, leaking 
the contents, earthquake faults in the vicinity, and Lord 
knows, I know too much about earthquake faults and dangerous 
radiation.
    And of particular concern to me, groundwater from Yucca 
Mountain flows into my State. And the fact that there were 
tests that showed that water was leaking from the site.
    So to me, it is a closed matter. But since it was raised by 
the Ranking Member on the Subcommittee, Senator Barrasso, I 
felt it was important to bring everybody up to date that a GAO 
investigation asked for by House Republicans basically said 
this was an appropriate decision.
    I have some questions here, I am going to focus, starting 
on the Fukushima and then move to California, try to cover all 
those bases. Chairman Jaczko, 34,000 children in Japan have 
been issued personal radiation monitors. Those children live 
within, they live 40 miles from the plant itself, well outside 
the 12-mile exclusion zone. Why do you think 34,000 kids were 
given radiation monitors?
    Mr. Jaczko. It is my understanding there has been a lot of 
discussion about the protective actions for children in Japan, 
as well as in general with all of the people living in Japan. 
The Japanese government continues to evaluate the actions that 
they have taken with regard to protecting all of their 
population. This is a very complicated situation and I think as 
the international community begins to look more and more at 
what happened in Japan, there is a lot of interest and effort 
in attempting to come up with a more common set of guideline 
for what types of protective actions are appropriate.
    Senator Boxer. OK, well, wait a minute, this isn't about 
protective. This is about exposure. So I would just say, since 
we want to learn from this, if your answer was because the 
Japanese government has been bombarded by parents, I would say 
that is a better answer. Because that is my understanding. And 
let's just note, we can't have an accident like this, is my 
point. Because you can't, kids are going to school there. They 
live 40 miles, and the parents don't feel good.
    Now one of the things, I am going to ask Commissioner 
Ostendorff on this, because I don't want to give you all the 
hard questions. Because this is a hard one. Help me with this.
    The Japanese government has raised the legal limit for 
exposure since the plant was devastated, since the plant was 
devastated by the March 11th earthquake and tsunami. Prior to 
the accident, the annual permissible dose was 1 millisievert 
per year, and now it's 20 millisieverts.
    Now, that sounds to me very suspicious. Why would you all 
of a sudden find out, oh, we can be exposed to more radiation? 
Were there any studies that were done that said that level is 
safe and that's why they raised it? Or did they raise it 
because the people were exposed to more than one?
    Mr. Ostendorff. Madam Chair, I am personally not aware of 
there being any studies that informed that decision. But I do 
not have the detailed knowledge of what the Japanese government 
may have considered in that area. I do agree that is a 
significant change to radiation exposure levels.
    Senator Boxer. OK, well, can I just ask the Chairman to 
work with the commissioners and try to see if you can do a 
little more investigation on this? Because I don't want to see 
that happen where, after an accident, we say, oh, it is OK, you 
are exposed to what we thought was the limit, but we are 
changing the limit. It doesn't make it OK.
    I wanted to ask you about, Chairman Jaczko, I will get back 
to you. On April 11th, PG&E asked the NRC to delay final 
processing of the Diablo Canyon license renewal application 
until they complete their 3D seismic studies. I think that was 
a smart thing they did, and the right thing. According to press 
accounts, the NRC is moving forward with safety and other 
reviews of Diablo in preparation for a ruling on this request. 
So I guess what I want to ask you, is it usual, if they have 
asked for a delay, do you normally grant the delay, or is that 
something that is not going to be automatic unless you take a 
vote? How does that work?
    Mr. Jaczko. What PG&E asked for specifically was that we 
delay a final decision. They did not actually ask us to delay 
the review. But what we have done is we have moved forward with 
the safety component of the review, but held open a piece of 
that review pending the analysis of the seismic studies.
    In addition, we have held off and won't finalize the final 
environmental impact statement until the final 3D assessment is 
done. So we are effectively waiting for that 3D assessment to 
be completed before we complete our actions on the review.
    Senator Boxer. OK. Well, let me just say, from a very 
concerned Senator, and I speak for my fellow Senator and for 
the people in my State, if you were looking at a new proposal 
and it came to you on an earthquake site, where we have had 
studies that show the faults are getting worse, not better, and 
the tsunamis are going to get worse, not better, I would assume 
you would say, take your plant somewhere else. What I am hoping 
that you do is understand. Both of these plants have had 
enormous increase in population since they were approved, 
especially San Onofre, which has now 7.4 million people living 
within 50 miles. They are on earthquake faults, they are right 
along the coast. You have identified issues and problems.
    I think it is very important that when you look at this in 
a humble way, as the commissioner pointed out, and I appreciate 
so much the tone of his remarks, I think we are all humbled by 
what happened, that you look at this with the eyes of the 
people living there who are in a situation where, when I went 
to San Onofre, one of the women, she was actually a PR person, 
pulled me aside, and she said, you asked what the evacuation 
plan is there. They don't really have any. She said, here is 
our evacuation plan. Rush hour on the freeway.
    Now, anyone who has been to Southern California in rush 
hour on the freeway, that is not acceptable. So I am urging 
you, do not rush these.
    We also in California, I don't know whether Vermont is No. 
1 in energy efficiency or California, we may be No. 1. But the 
bottom line is, in our State, we have a lot of sun, we have a 
lot of wind. We have a lot of geothermal. And yes, there may be 
places for nuclear power that are not on earthquake faults or 
near tsunami zones. So please put on those safety hats. We will 
be working very closely with you. I don't want to see a rush to 
relicense these plants. It would not be fair to the people.
    Senator Barrasso, you have 10 minutes.
    Senator Barrasso. Thank you very much, Madam Chairman. I am 
glad to see the full Commission here with us today. I am 
particularly pleased to see Commissioner Ostendorff, thank you 
very much for being here. I congratulate you on your recent 
nomination by the President to serve again on the Commission. 
Your background is extensive. Prior to being sworn in as 
commissioner, you worked as an engineer, legal counsel, policy 
advisor, naval advisor. Among your many jobs, you were 
Principal Deputy Administrator at the National Nuclear Security 
Administration, a member of the staff of the House Armed 
Services Committee, serving as staff director of the Strategic 
Force Subcommittee, and a captain in the Navy, commanding an 
attack submarine squadron. I could go on and on.
    I would like to ask the Chairman, having served with Mr. 
Ostendorff on the Commission, do you believe that the Senate 
should confirm Commissioner Ostendorff as quickly as possible 
before his term expires?
    Mr. Jaczko. I would leave it up to the Senate to decide 
that, but I certainly have had a good and productive working 
relationship with him and I think he is a valuable member of 
the Commission.
    Senator Barrasso. Thank you. It is interesting, because I 
agree with Senator Boxer, in our efforts on safety and our 
concerns about safety, I know that you had spoken at a 
symposium in Virginia, Mr. Chairman, were you said employees, 
both of the NRC and industry, must feel empowered to ask the 
difficult questions. Ensuring this happens is at the core of 
safety culture. And when we look at industry, we want safety 
for workers, for others, for communities. And you have to be 
able to ask questions. Do you agree with that statement? I see 
you nodded your head yes.
    Mr. Jaczko. Absolutely.
    Senator Barrasso. And I know you are aware that the Office 
of Inspector General issued a report on June 6th that has been 
widely referenced in the press, your statement on June 8th 
stated that you appreciated the thoroughness with which the 
Inspector General and his staff conducted this comprehensive 
review. Do you still agree with that issue about the 
thoroughness?
    Mr. Jaczko. Yes.
    Senator Barrasso. Thank you, nodding your head yes. Well, 
according to the report, and I have read it, and the New York 
Times has done an extensive reporting on it on June 11th, it 
says ``Mr. Jaczko created a hostile workplace atmosphere with 
frequent outbursts of temper, favoritism in travel assignments 
and selective release of information to other members of the 
Commission.'' And Madam Chairman, I ask that the entire 
Inspector General's report be made a part of the record.
    Senator Boxer. Without objection, so ordered.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Thank you.
    Mr. Jaczko. Senator, if I could just comment, those were 
not findings of the Inspector General. They were comments in 
the report of individuals that they interviewed. There is a 
distinction between those as far as the review goes.
    Senator Barrasso. Well, continuing, I would say that with 
safety and a sense of a feeling of someone being able to speak 
out and feel intimidated or feel pressured to not speak out, 
where there is a finding in a report or a statement of someone 
who has felt that way, they may be less likely to speak out. 
Because the Inspector General's report goes on, it says, ``Over 
the course of the investigation, a number of interviewees,'' as 
you say, ``a number of interviewees conveyed their perception 
that the Chairman controls and restricts the information 
available to his fellow commissioners, and noted concerns about 
his interpersonal style.'' It goes on, ``Several current and 
former Commission staff members said the Chairman's behavior 
caused an intimidating work environment.''
    A former chairman told the Office of the Inspector General 
that the Chairman often yelled at people and his tactics had a 
negative effect on people. He described this behavior as ruling 
by intimidation. The former chairman said he----
    Senator Sanders. Madam Chair, if I could, I am not clear. 
Who is making these statements?
    Senator Barrasso. This is in the report----
    Senator Sanders. I know it is in the IG, but this is not 
the IG that is making this----
    Senator Boxer. An unnamed staffer.
    Senator Sanders. An unnamed staffer?
    Senator Barrasso. People that are members of the staff and 
a former chairman said----
    Senator Sanders. A former chairman?
    Senator Barrasso [continuing]. described the behavior as 
ruling by intimidation. The former chairman said he verbally 
counseled the chairman----
    Senator Sanders. Is the former chairman still active in the 
NRC?
    Senator Barrasso. The former chairman counseled this 
Chairman on his behavior on two occasions before leaving the 
agency. It is page 43 of the report. And I don't want to use my 
time as part of the questioning.
    Senator Sanders. I am sorry, yes.
    Senator Barrasso. But I am happy to share this report. And 
my question is, I am focusing on a culture of safety. So I want 
to make sure that we are getting that culture of safety. And if 
people feel intimidated and they work there, I worry about 
that. I worry about that in coal mines, I worry about that in 
industrial sites, I worry about that on the railroads, I worry 
about that throughout the State of Wyoming and I worry about 
that also from a nuclear power issue.
    Yes, Mr. Chairman?
    Mr. Jaczko. I worry about the same things. And since I have 
become Chairman, I have worked very hard to ensure that we have 
an open debate and dialog at the Commission. It is no, I am a 
very passionate and intense person. I have, hold people 
accountable for their actions at the agency. And that is what I 
have done since I became Chairman.
    But I would note that all of those statements that you read 
were not findings of the IG, which means that they were 
statements that some people made and they couldn't corroborate 
them, they couldn't substantiate them to the point that they 
became an official finding.
    As I said, as Senator Carper has said, we can always work 
to make everything we do better. And every day I come to the 
NRC, I work to do my job better. And there are going to be 
difficult issues and difficult discussions that we will 
sometimes have at the agency. I feel very strongly that the 
staff, I have not experienced staff being shy around me and 
being unwilling to tell me they think. So while sometimes I 
express my thoughts about what I think to them, I have been 
very comfortable that we have an open and----
    Senator Barrasso. Do you agree with the Washington Post 
that Yucca Mountain is a $15 billion hole to nowhere?
    Mr. Jaczko. It is not really something that is in my role 
and responsibility to comment on.
    Senator Barrasso. Thank you. You mentioned my colleague 
from Delaware and his comments about the State of Nevada 
perhaps making a decision to change their mind on Yucca 
Mountain. But it seems to me that Nye County, the home county, 
the folks there still did want Yucca Mountain to proceed and 
still did want those jobs and did want that opportunity.
    To get to Senator Inhofe's questions, and Madam Chairman, 
if I run out of time I would like to just submit the others for 
the record.
    Senator Boxer. Of course.
    Senator Barrasso. The Energy Reorganization Act that the 
Chairman is exercising his executive administrative functions, 
it says, ``shall be governed by general policies of the 
Commission. The Commission, through its internal Commission 
procedures sets forth procedures for the Chairman to follow in 
exercising the emergency authority under Section 3 of the 
reorganization plan.'' I have that section here.
    There have been some concerns, because you have used your 
emergency authority. I read it, it says you shall have it for a 
limited period of time, any chairman, should have it for a 
limited period of time, and it requires additional reporting to 
the other members.
    So I would ask the other members who are sitting here if 
you can tell me, when did the Chairman inform you that he 
ceased using his emergency powers under Section 3? Has that 
happened?
    Ms. Svinicki. I received no such notification.
    Mr. Apostolakis. I did not, either.
    Mr. Magwood. Never received notification.
    Mr. Ostendorff. I have not received any notification.
    Senator Barrasso. OK. Because the Chairman is required, 
both in statute and Commission procedures, to provide a 
complete and timely report to the Commission on actions taken 
while exercising the authority. So you have not yet received a 
report, it sounds like, if you haven't gotten notification.
    Mr. Chairman, when you testified before this Committee back 
in April, and these are Senator Inhofe's questions, when you 
testified back in April you stated that ``most of the 
activities'' that you had engaged in as part of this response 
``have been in my normal supervisory authorities over the staff 
at the agency and my communication responsibilities.'' Senator 
Inhofe asked for a full account of the actions that you took 
outside of your normal authority, because you had said ``most 
of the activities.'' So will you commit to provide a report to 
this Committee detailing the actions during your exercise of 
emergency authority?
    Mr. Jaczko. Of course.
    Senator Barrasso. Thank you.
    Mr. Chairman, also, in your testimony before the House 
Energy and Commerce Committee in May, you stated that you were 
not ``required'' to make a formal declaration of your decision 
to use emergency authority under Section 3(a) of the 
reorganization plan and go on to, I can read the whole plan, 
but in the interest of time, why did you choose to keep secret 
the fact that you were transferring to yourself functions 
vested in the Commission?
    Mr. Jaczko. The Commission was fully aware that I was 
exercising my emergency authorities. I did not keep that 
secret. I did not make a formal declaration, because that is 
not part of the process.
    The Commission was briefed three times a day by the staff, 
or rather, staff was briefed three times a day during the 
accident about all the actions that were being taken. They were 
provided with situation reports that were, at the outset of the 
incident, produced at least three times a day. I spoke with 
them at least once a day. Generally, as much as time allowed in 
the initial part of the incident.
    So there was a tremendous amount of communication to my 
colleagues. They were fully aware of all the decisions that 
were being taken by the agency and then ultimately by me in my 
role as Chairman.
    Senator Barrasso. So I would like to ask each of the four 
other commissioners, when did you first learn that the Chairman 
had taken on emergency powers?
    Ms. Svinicki. I did not receive any declaration as the 
Chairman has stated. He made no declaration.
    Senator Boxer. The question was when did you learn about 
it, not whether you received notification.
    Ms. Svinicki. My understanding is that NRC's Office of 
congressional Affairs informed this Committee of the exercise 
of emergency powers. And I believe I learned of it then.
    Senator Barrasso. Have you been specifically informed by 
the Commissioner that he was taking over?
    Mr. Apostolakis. No, I was not.
    Senator Barrasso. Commissioner Magwood.
    Mr. Magwood. Yes, just echoing Commissioner Svinicki, I 
first heard about it when we heard that the Office of 
congressional Affairs had notified this Committee. That was the 
first time I heard it.
    Mr. Ostendorff. Senator, I did have a discussion with the 
Chairman on March 31st, in which I understood at that point in 
time that it appeared to me he was exercising emergency powers, 
though there had not been a formal statement to that effect.
    Senator Barrasso. Mr. Chairman, final question from Senator 
Inhofe, he sent you a letter outlining his concerns regarding 
your exercise of emergency authority, asked you to provide any 
legal analysis that supports your transfer of Commission 
functions to yourself. He said you have not provided one yet. 
Are we to conclude that you chose to exercise the authorities 
without seeking any legal counsel? And perhaps you want to seek 
legal counsel and respond to Senator Inhofe on that.
    Mr. Jaczko. No, that is incorrect. I sought legal counsel. 
There is no question my authority in this case, and I have 
plenty of documentation from the general counsel to support 
that.
    Senator Barrasso. Thank you, Mr. Chairman. Thank you, Madam 
Chairman.
    Senator Boxer. Thank you.
    I am going to place in the record a document backing up 
what Chairman Jaczko has stated. There is no requirement for an 
emergency declaration at all. And we will put the actual 
language into the record. Because this kind of questioning is 
to me extraordinary, asking if you did something that you don't 
have to do. And having every commissioner say no, he didn't do 
it. Yes, you didn't have to. It is mind-boggling around here.
    OK, we are going to turn to the Subcommittee Chairman now, 
Senator Carper.
    Senator Carper. I want to go back to what I thought this 
hearing was to focus on, and that is, what have we learned. 
Before I do that, I just want to encourage all of you in the 
roles that you are playing on the commission, whether it is as 
a commissioner or as the chairman of the commission, one of the 
best leadership rules I ever learned in the Navy and then a lot 
of other places, including my own home, was to follow the 
Golden Rule, treat other people we want to be treated.
    I would just remind all of you, that is the way I try to 
live my life. Sometimes fail miserably. I try every day. I 
implore you to do the same, whether you are the Chair or a 
member of this Commission. Treat other people the way you want 
to be treated.
    The Chaplain here, Barry Black, with whom some of us will 
be meeting in a couple of hours, those of us who need special 
help, special guidance from the Chaplain, meet with him on 
Thursdays for half an hour or so. But he always reminds us that 
the Golden Rule is the Cliff Notes of the New Testament. And as 
it turns out, it is the Cliff Notes of just about any scripture 
of the major religions of the world.
    Having said that, let's talk about lessons that we have 
learned, lessons that we have learned so far since the 
tragedies at Fukushima. I just want to ask, I will start with 
you, Commissioner Ostendorff, just give us one example of a 
lesson that we have learned that we have or have not begun to 
act on, to implement some followup in this Country because of 
that.
    Mr. Ostendorff. Senator, thank you for your question. I 
would say one area that has come up by the Task Force at two 
meetings we have had so far has been the need to evaluate the 
adequacy of our existing station blackout rules, which deal 
with the loss of A/C power onsite offsite. I think that the 
Commission will probably receive from the Task Force perhaps 
some recommendations in this area. That is a concrete example 
that I provide to you.
    Senator Carper. All right, thank you.
    Mr. Magwood.
    Mr. Magwood. I would agree with Commissioner Ostendorff on 
station blackout. I would also add----
    Senator Carper. That is good, and for anybody, if you want 
to repeat something that somebody else has said, just for 
reinforcement, that is a good thing. I appreciate that. But 
then you still have to give me another example.
    Mr. Magwood. One other example, one that I think leaps out 
at many of us, after 9/11 we put in place certain procedures 
and equipment to allow plants to respond to events that require 
emergency cooling from auxiliary diesel generators to drive 
pumps to provide water to core reactors and spent fuel pools. 
We require those units be just a very short distance away from 
reactor buildings. Clearly, if we had those procedures in place 
and had experienced a Fukushima type event, that equipment 
would have been wiped out along with a lot of the other site 
equipment. That was a significant revelation for me and 
something I think we have to address.
    Senator Carper. All right, thank you.
    Dr. Apostolakis, how are you doing?
    Mr. Apostolakis. I am doing fine, thank you.
    Senator Carper. Nice to see you.
    Mr. Apostolakis. One thing that maybe I have learned is 
that we, that I think at least we should go back and look again 
at the distinction between design basis events and beyond 
design basis events. That is a legal distinction. The agency 
has many, many requirements and inspection requirements and so 
on for design basis events. For beyond design basis events, we 
don't really get involved too much.
    And of course, nature doesn't work that way. Nature does 
not distinguish between design basis and beyond design basis 
events. So I think we ought to go back and look at what we are 
doing now with respect to beyond design basis events and maybe 
get some ideas from the staff as to how we can strengthen our 
involvement. This is of course a personal view.
    Senator Carper. Good. Ms. Svinicki, one lesson?
    Ms. Svinicki. I certainly agree that we should look at 
station blackout and loss of offsite power. I also agree that 
we need to re-look at the measures put in place after September 
11th to deal with catastrophic events.
    I would add an area that is fruitful for lessons learned 
would be looking at our coordination between Federal agencies 
and State and local governments, should an event occur. It is 
always very difficult to have communications in a crisis 
situation. I think that is an area that we can always be 
exercising and improving. Thank you.
    Senator Carper. All right, thank you. Mr. Chairman?
    Mr. Jaczko. Certainly I think they are good comments by my 
colleagues. The only thing I would add that hasn't been touched 
on is the significance of spent fuel pools. I think we have had 
a singular focus, perhaps, on reactor safety in the event of 
accidents, and have not put enough attention to considering the 
impact of spent fuel pools. Not necessarily for the pools 
themselves, but for how they could possibly impact the ability 
to carry out response at the site.
    The other piece of that I think is just a recognition that 
our traditional approach has always been to assume a single 
incident at a single reactor. Clearly, Fukushima Daiichi has 
shown us that we have to consider the possibility of multiple 
units at a single site, perhaps multiple spent fuel pools being 
affected at the same time.
    Senator Carper. Thank you all. Thank you, Madam Chair.
    Senator Boxer. Thank you. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair. And again, thanks 
for the hearing.
    I guess I would say that our Country is well served when 
you as a Commission function collectively and collegially. When 
you do, you can pool your expertise and more effectively 
harness the knowledge at your disposal.
    I have concerns that the Commission may not be fully 
utilizing the expertise on their Advisory Committee on Reactor 
Safeguards, the ACRS. The Advisory Committee is mandated by law 
and structured to provide a forum where experts representing 
many technical perspectives can provide independent advice that 
is factored into the Commission's decisionmaking process. The 
Advisory Committee again represents a wealth of knowledge in 
reactor safety and severe accident occurrences. I am concerned 
that they have been so far limited to merely reviewing the 
NRC's staff's conclusions at the end of their long-term review 
of the Fukushima accident.
    My question is, the NRC's direction for the Fukushima Task 
Force lists no role for the ACRS, other than reviewing the 
staff's final report and the end of the longer-term review. Mr. 
Chairman, considering the ACRS's wealth of expertise in nuclear 
and reactor safety and severe accidents, wouldn't the NRC's 
Task Force benefit from the insights throughout the Fukushima 
review?
    Mr. Jaczko. Well, the staff has briefed the ACRS once 
already. Very early on in the incident they held a meeting and 
they briefed them. The senior staff members will also be 
briefing the ACRS, I believe next week. So there has been 
dialog and interaction between the ACRS. But the Commission did 
provide a role for ACRS in the longer-term review. But given 
the significant task in front of us and the very short period 
of time in which we asked the Task Force to work, we really 
wanted them to focus on their best thinking and utilize and 
reach out to the people that they thought would be most 
helpful.
    In my discussions with the ACRS, I have encouraged them to 
make their members available to the Task Force if the Task 
Force had questions and wanted to reach out to them. The ACRS 
was not comfortable with that. They preferred for them to meet 
singly as a body. I think that is unfortunate, because as you 
said, I think they have tremendous expertise that could be made 
available to the Task Force. But their interest is not to do 
that in a way that would be most convenient for the Task Force.
    Senator Boozman. Would the rest of you like to comment in 
that regard? Do you feel like increased use of the ACRS would 
be beneficial?
    Ms. Svinicki. Senator, as the Chairman noted, the 
Commission did explicitly instruct that one tasking for the 
ACRS to review the final report. But in general, the ACRS 
Chairman can also initiate inquiries and look into matters. I 
am fully supportive of the ACRS doing some self-directed looks 
at Fukushima as well.
    Mr. Apostolakis. Yes, I am a former chairman of the ACRS. 
And I can assure you that there is no doubt in my mind that we 
will hear from them and they will give us their frank opinion. 
There is nothing to stop them from writing letters any time 
they want.
    Senator Boozman. And you agree that is helpful?
    Mr. Apostolakis. Yes, absolutely.
    Mr. Magwood. Yes, Senator, I am fully supportive of a full 
participation by the ACRS, particularly in the longer-term 
review.
    Mr. Ostendorff. Senator, I agree with my colleagues. I also 
agree with the Chairman's comment that the ACRS role in the 
longer-term review is perhaps, as far as our Task Force 
tasking, is appropriate. But as Commissioner Apostolakis says, 
to the extent that they have other ideas as to what might be 
helpful, I welcome those.
    Senator Boozman. Very good. I believe that Chairman Issa 
sent a letter regarding this, are you familiar with that, Mr. 
Chairman?
    Mr. Jaczko. Yes, I am.
    Senator Boozman. Good. I think he asked for a response by 
June 9th. Have you sent a response yet?
    Mr. Jaczko. I don't believe I have yet.
    Senator Boozman. OK. Do you have any idea when that will be 
done?
    Mr. Jaczko. I assume in the next couple weeks.
    Senator Boozman. Would you, again, I am interested also, 
would you share the response with the Committee when that is 
done?
    Mr. Jaczko. I would be happy to.
    Senator Boozman. Good. Thank you, and I appreciate you all 
being here. Thank you, Madam Chair. I yield back.
    Senator Boxer. Thank you.
    Senator Sanders.
    Senator Sanders. Thank you, Madam Chair.
    I believe that it was Commissioner Magwood who, in his 
remarks, said something to the effect that the NRC can benefit 
from an open process. And I happen to agree very much with what 
the Commissioner said. In that light, let me ask Chairman 
Jaczko just a few questions. Mr. Chairman, your position, as I 
understand it, has been that the NRC should not be involved in 
preemption issues, the legal fight that is currently going on 
between the State of Vermont and the Entergy Corporation. Is 
that still your position?
    Mr. Jaczko. I certainly, as I have looked at the issues, I 
don't see an immediate issue here where there is a concern for 
preemption. I don't want to get into the specifics, though, of 
kind of the legal question that was in front of the Commission 
to protect that, those frank legal discussion from our staff.
    But as I have said publicly, the States have a role here. 
The Federal Government has a role. And I think we have taken 
our action with our license extension, and the State has 
permanent action, those things are necessary in order for 
license.
    Senator Sanders. So just to say it again, at this moment, 
you do not believe that the State, that the NRC should get 
involved in the legal dispute between the Entergy Corporation 
and the State of Vermont? Am I hearing you say that NRC should 
not be involved?
    Mr. Jaczko. Again, Senator, I don't want to comment 
specifically on the matter in front of the Commission, because 
that is a privileged discussion. But certainly I have seen 
nothing that would tell me that there is a preemption issue 
here.
    Senator Sanders. OK. Again, getting back to Commissioner 
Magwood's very apt statement, which I strongly agree with, that 
the NRC benefits, and we all benefit, from an open process, my 
understanding is that there was a vote yesterday at the NRC on 
the issue in fact of whether or not the NRC should be involved 
in this case. Can you tell me what the vote was, Mr. 
Commissioner?
    Mr. Jaczko. Well, again, the matter in front of the 
Commission was in our, one of our legal discussions. And we 
generally like to keep those closed matters. Because it 
preserves the opportunity for our legal counsel to give us 
frank legal recommendations.
    Senator Sanders. Well, you may not like it, but I am going 
to pick up Commissioner Magwood's point again about our open 
process. Your job is to represent the best interests of the 
people of the United States of America on very difficult 
issues. My understanding is that there was a vote yesterday on 
whether or not the NRC should recommend to the Department of 
Justice as to whether or not they should intervene on behalf of 
Entergy. Can you tell me if I am right and what the vote was on 
that?
    Mr. Jaczko. As I said, at this point the Commission has not 
released those documents. I certainly would be in favor of 
providing them to you, with the understanding until we were to 
agree to release them publicly that you not release them.
    Senator Sanders. Well, I don't want them if they can't be 
released publicly. I would like them released publicly and I 
would like a member of the Commission now, Commissioner 
Magwood, you believe in an open process. Will you tell us how 
you voted yesterday?
    Mr. Magwood. I can really only echo what the Chairman just 
said. It is a privileged discussion and it is also a discussion 
that the agency has had with the Department of Justice. It is 
not something, in fact, we were specifically asked not to 
comment on it by the Department of Justice.
    Senator Sanders. Well, I am asking you to comment on it.
    Mr. Magwood. I am afraid I can't do that, Senator.
    Senator Sanders. And one of the reasons, well, let me ask 
Commissioner Svinicki, will you tell me how you voted 
yesterday?
    Ms. Svinicki. Senator Based on inquiries from your office 
regarding this legal, this ongoing litigation, I asked my 
counsel to inquire and receive advice and confer with the 
Justice Department. The Justice Department asked that I 
emphasize two things in my response. First of all, that the 
Justice Department has the litigating authority and is the sole 
decisionmaker on any Federal Government involvement in this 
matter and they also----
    Senator Sanders. But you can and apparently did make a 
recommendation to the DOJ, is that correct?
    Ms. Svinicki. There are interagency, the litigation posture 
of the United States is under active deliberation by the 
Justice Department. And they have asked that in our testimony 
today we not comment any further.
    Senator Sanders. All right. Madam Chair, I won't waste a 
whole lot of time asking all the commissioners. I suspect I 
will get the same answer, and I find that a disturbing answer.
    Let me ask Chairman Jaczko if he could tell me, what did 
the non-partisan general counsel's office recommend to the 
Commission about this matter?
    Mr. Jaczko. Again, in order to preserve the integrity of 
their advice, I would rather not comment. I would just say 
personally, I do think historically it has been very rare for 
the agency to get involved in preemption issues. It is a very 
high threshold for us to get involved. And I think it should be 
a very high threshold for us to get involved.
    Senator Sanders. My last question, I am running out of time 
now, let me ask the chairman, has Entergy or its 
representatives or the nuclear industry as a whole come in to 
meet or requested to meet with the Commission or the NRC staff 
about this litigation?
    Mr. Jaczko. There were meetings between Entergy officials 
and staff at the agency. They requested meetings with 
commissioners under guidance from the Department of Justice. I 
can only speak for myself in that regard, I did not take the 
meeting.
    Senator Sanders. You did not meet with them, but staff did?
    Mr. Jaczko. I believe that they had a meeting with some of 
our staff, correct.
    Senator Sanders. Have representatives from the State of 
Vermont met with your staff? Have they been invited to meet 
with your staff?
    Mr. Jaczko. I am not aware of that.
    Senator Sanders. OK. Madam Chair, I may want to get back 
later, but my time has expired.
    Senator Boxer. We will have another round.
    Senator Merkley.
    Senator Merkley. Thank you very much.
    I want to turn to some of the issues that were raised by 
Fukushima. One of those is regarding vent systems. And here in 
the United States, there is a point in time in which we 
recommended that vent systems be hardened and if someone could 
choose to just kind of quickly describe what was done in that 
hardening and whether that was fully implemented across the 
nuclear power plants across America.
    Mr. Jaczko. Well, Senator, I believe all of our boiling 
water reactors, as ultimately really kind of a voluntary 
initiative, did harden the vents, which ensures that they are 
able to withstand the pressures in more of a design basis 
accident scenario. The event in, it is still unclear exactly 
what the source of hydrogen was and the challenges with the 
venting at Fukushima, whether it was a failure of the vents 
themselves or whether there was some other leak in one of the 
systems that would have allowed the hydrogen to accumulate 
where it did.
    So at this point, it is not clear exactly what role they 
played. But that again is something that our Task Force will be 
looking at very closely. I expect some very significant 
recommendations on future changes to our requirements for the 
hardened vents and other means to monitor and control hydrogen 
accumulation.
    Senator Merkley. So one of the other issues that has been 
discussed in the past has been automatic depressurization 
systems. And there has been debate over whether a design should 
be implemented that allows pressure to be automatically 
decreased or whether there should be a human in the link, if 
you will. And I have received some conflicting understandings 
of what was decided and what has been done on nuclear power 
plants in America in that regard. Can you comment a little to 
that?
    Mr. Jaczko. On that particular issue, I am not as familiar 
with it. But we can get back to you with some detailed 
information.
    Senator Merkley. Is there anyone who is familiar with it? 
So the general understanding at the press level has been that 
the hydrogen gas that occurred in 1 and 3 came from fuel rods 
in those active reactors that were partially uncovered. Mr. 
Chairman, you are proposing that is perhaps not the reason? 
What are the other potential sources?
    Mr. Jaczko. Well, again, the hydrogen would come from some 
type of interaction with exposed fuel in the water and air. 
That is essentially how you generate the hydrogen. So Unit 4 in 
particular, there is still some uncertainty about where the 
hydrogen came from there, whether it was from the spent fuel 
pool or whether it came, what I think is kind of the dominant 
theory right now is that the vent lines themselves, and the 
actual exhaust stack that goes from Unit 3 potentially had a, 
did not have a valve that prevented the hydrogen from flowing 
into the Unit 3 vent into the Unit 4, and therefore it kind of 
went back through the pipes essentially.
    Senator Merkley. So I want to stick to 1 and 3, we will 
leave the mystery of Unit 4 apart right now. The whole point of 
venting is so that the explosion occurs outside rather than 
inside a vessel. And clearly, something went wrong. What do we 
think went wrong?
    Mr. Jaczko. Well, certainly the fuel was uncovered. When 
the fuel is uncovered, it is likely going to produce hydrogen. 
Now, the plants are designed so that hydrogen will pool in 
essentially what is called the wet well. And then there is a 
vent, this so-called hardened vent, that takes that hydrogen 
from the wet well and releases it out into the atmosphere.
    Somewhere in that system, there was a failure and that 
hydrogen was allowed to accumulate in an area where it 
shouldn't have accumulated, and therefore there was ultimately 
an explosion. But at this point, the details are still not yet 
clearly defined as to what the exact path of that hydrogen was 
from the accumulation from the fuel.
    Senator Merkley. So my understanding is the explosions 
occurred after the venting began but there is no insight yet as 
to what went wrong in terms of whether the explosion began on 
the outside, ignited the hydrogen inside, so on and so forth? 
There is just a--well, this is a pretty important issue for us 
to understand. Because it is key to a lot of the complexities 
that have come about in the effort to rescue the reactors.
    Commissioner Magwood, you noted that the Fukushima shows 
insights about specific safety improvements. What are the top 
five?
    Mr. Magwood. What are the top five improvements?
    Senator Merkley. Yes, you said that Fukushima gives us 
insights on the needs we have for specific safety improvements. 
What are the top five for American power plants?
    Mr. Magwood. I am not sure I can give you a top five. I 
think that is really what we are expecting this Task Force to 
do for is. But just an overall----
    Senator Merkley. What are a couple that you would highlight 
for us?
    Mr. Magwood. Well, an observation I would make is that if 
there is, I think Senator Barrasso asked earlier what it was, 
or maybe Senator Carper, what a lesson was. If there is an 
overall lesson to be learned from this, I think it is that you 
can't, as I think Senator Boxer said earlier, you can't predict 
everything that will happen in the future, you can't predict 
every earthquake, every tsunami.
    But I think the biggest lesson I take form all this is that 
you have to be able to recover from whatever happens. So for 
me, the biggest safety message is to position equipment, have 
training, to have the capability to recover from whatever 
incident transpires and to be able to do so in an effective 
manner.
    Senator Merkley. Well in order to do that--I am over my 
time now. I would just leave you with this thought. In order to 
do that, one has to have an understanding kind of what are the 
highest risk areas, so that the training can be appropriate, 
the countermeasures can be appropriate, the preventive measures 
are fully pursued. I would think at this point, we would have a 
list of the top five concerns, be they not having backup power 
that is susceptible to being flooded by tsunami, might be one 
example.
    Thanks.
    Senator Boxer. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman. In view of 
some of the assertions that we heard that were made, how many 
employees are on the staff of the NRC?
    Mr. Jaczko. Approximately 4,000.
    Senator Lautenberg. Four thousand. OK. I think it is 
important to note that is a pretty large size organization.
    Mr. Magwood, the GE Mark 1 design that was used at 
Fukushima is also used at U.S. plants, including two reactors 
in my State of New Jersey. Some have said that modifications to 
the design in the United States ensures the safety of the 
reactor. But it now appears that the Japanese plant also 
previously made the modifications like the ones that were made 
at plants in the U.S., and if those modifications could prevent 
what finally happened in the Japanese accident, can we believe 
that our plants are not similarly vulnerable?
    Mr. Magwood. I think that is a very important question that 
we are all asking ourselves today. By the way, I did visit 
Oyster Creek some months ago and learned a lot about the Mark 
1s during that visit. I think that what we are finding today is 
that there are still facts dribbling in from Fukushima, there 
are still some very basic things that we are still trying to 
understand about what exactly were the modifications that the 
Japanese performed at the Mark 1s in Japan. We really don't 
have all those details yet.
    We don't know, and I think the Chairman was indicating 
this, we don't really know what happened to the vents during 
the earthquake and the following tsunami. There are so many 
factors yet that we still have to sort out, that it would be 
premature to make a judgment at this point. But right now, 
today, the staff has indicated that they believe the plants are 
safe. Unless we learn something dramatically different from 
what we know today, we will continue to believe that.
    Senator Lautenberg. I am not sure that is reassuring to the 
public. But Mr. Chairman, do you have anything to say about 
that?
    Mr. Jaczko. Well, I think the review we are doing is to 
make sure we get this right. And what we want to make sure that 
we do is we don't follow something that is an incorrect path, 
that we don't take early information that turns out to be 
inaccurate and pursue it and make changes that ultimately don't 
impact safety.
    So as Commissioner Magwood indicated, the venting process 
is still a little bit uncertain. Because there is still too 
much radiation for people to really get into the buildings to 
begin to remove debris, to try and figure out exactly what 
happened in the units. So right now, we have done, as part of 
the reviews and the Task Force review, we have always asked 
ourselves the question, are the plants still safe, is there 
anything we need to do today to address that.
    And the answer continues to be, no. We want to get good 
information. We have time to do that. The likelihood of 
something like this happening in the United States is still 
very, very, very small. Because these are really very, very 
unlikely types of events.
    So it is very important, 90 days may seem like a very long 
time to do this review.
    Senator Lautenberg. It does.
    Mr. Jaczko. To the people doing the review, it is going by 
in a millisecond, because they have done so many interviews, 
there is so much information for them to process. But it is 
important that we get it right. I think that so far, they are 
looking at all the right things. I think they are going to come 
out with very good----
    Senator Lautenberg. My concern included the length of time 
that it is taking to do this. But you have already dealt with 
that.
    The spent fuel, and I address this to any and all of you, 
the spent fuel can be stored in pools, as it was at Fukushima, 
the plant in Japan, or dry casks. Now, we have heard from you 
that spent fuel and dry casks are both, each one is a safe 
method of storage. But is one more reliable than the other, 
safer than the other?
    Mr. Jaczko. Each of them I would say has different 
strengths and weaknesses.
    Senator Lautenberg. That is not--I think we should get past 
that and really, can we clearly say yes, one has a safety edge 
that the other doesn't have?
    Mr. Jaczko. With all the information we have right now, I 
would say no. They both provide a very robust way to maintain 
spent fuel cooling and to maintain the spent fuel. Now, we may 
find with all this new information from Japan that spent fuel 
pools may provide additional vulnerabilities that make them 
less of an optimal approach for storing fuel in the long term.
    But right now, with the information we have, what we know 
is that they are both very, very safe ways to store fuel. And 
there doesn't really seem to be an obvious difference between 
one approach versus another. But again, we are really looking 
closely at what happened in Japan, and we may get some 
information from that tells us that there really is a 
difference, and if there is, then we will do whatever we need 
to do to our regulations to do that.
    Senator Lautenberg. That universal, each of you, have each 
of you looked at this fairly in depth and come up with the 
conclusion that we have just heard?
    Ms. Svinicki. I agree with Chairman Jaczko.
    Mr. Apostolakis. I do also.
    Mr. Magwood. I agree with the Chairman. I would add one 
other fact. I think that while I believe, I agree with the 
Chairman, there are different aspects of wet and dry storage, 
and they both have their attributes. But probably the less safe 
thing to do with spent fuel is move it around a lot. So before 
you make a decision about whether to relocate spent fuel, you 
also have to take into consideration the risks involved in 
simply transporting this spent fuel around from wet storage to 
dry storage or whatever you want to do, because that's where 
the risks are the highest.
    Mr. Ostendorff. Senator, I would agree with the Chairman's 
comment and Commissioner Magwood's comment. I would also add 
that our Office of Research is looking right now at a 
differential risk calculation between leaving the spent fuel in 
a pool as opposed to putting it in a dry cask at different 
periods of time. So that will be informing the Task Force 
recommendations.
    Senator Lautenberg. Thank you. Thank you, Madam Chairman. 
Thank each of you.
    Senator Boxer. Thank you so much. We are going to continue, 
going to do another round.
    Chairman Jaczko, it is my understanding that the NRC staff 
will report their recommendations from this initial phase of 
the review to the commissioners on July 12th, and the 
commissioners will hold a meeting concerning those 
recommendations on July 19th. A lot of us are really anxious to 
see those recommendations.
    Will you assure me that the report containing the 
recommendations is delivered to my office and Senator Inhofe's 
office on the day it is delivered to the commissioners?
    Mr. Jaczko. Absolutely. I mean, again, I would say that is 
a decision probably for the commission, but certainly I would.
    Senator Boxer. Well, I will ask each commissioner. Can you 
assure me that you will release that report to me and to 
Senator Inhofe?
    Ms. Svinicki. I support that action.
    Mr. Apostolakis. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Senator Boxer. Excellent. OK.
    Ms. Svinicki, you testified at your confirmation hearing, 
when I asked you a series of questions about Yucca, and I sent 
it up and said, so you didn't work directly on Yucca, and you 
said, I did not, no. N-O. And I said, OK, very good, thank you.
    Now there is a report out in the media that says as a DOE 
employee you co-authored a technical report entitled Acceptance 
of Waste for Disposal and the Potential United States 
Repository at Yucca. And this report was used in the site 
characterization of Yucca Mountain, which eventually led to 
Secretary Abraham and President Bush approving it. And also, 
according to these documents, while at DOE you were tasked by 
the former Yucca Mountain project director to conduct technical 
work related to radioactive waste materials that could be 
stored in Yucca. And there is other, you were a member of DOE's 
repository task team, tasked with resolving technical issues 
related to Yucca.
    So it is kind of important to me, since I said to you, so 
you didn't work directly on Yucca, and you said, I did not, no, 
and now years later this comes out. Could you explain this to 
me?
    Ms. Svinicki. I am aware of the document that you are 
referencing, Chairman Boxer, and it has caused me to go back 
and look at my testimony to you and the exchange that we had at 
my confirmation hearing. You asked me to characterize my work 
at DOE, and my answer indicated that I had worked obviously in 
the Office of Civilian Radioactive Waste Management, which was 
well-known and was on my resume.
    And I indicated to you that I did not work on the Yucca 
Mountain license application. I worked on DOE waste inventories 
and transportation of materials in that program. And I drew 
that distinction in my testimony. I do not agree that the 
document that I believe you are referring to is accurate about 
stating that the reports I worked on were underlying the Yucca 
Mountain licensing application. I don't agree that is accurate.
    Senator Boxer. OK, that is fair. I would just like to say, 
when I summed up and said, so you didn't work directly on 
Yucca, I didn't mean you were in the mountain taking tests on 
it. I meant, were you working in the whole subject. And you 
were.
    So I would just say to you, this is troubling to me, I will 
leave it. I will leave it at that. I will leave it at that.
    I believe that the focus should be on ensuring the safe 
operation of the 104 nuclear reactors in communities across our 
Nation, not on old, already-resolved issues. But to ensure that 
everyone is clear that no laws were broken, I am going to ask 
you, Chairman Jaczko, two questions about the leaked Inspector 
General report. One, did the IG find that the NRC's general 
counsel supported your decision to direct staff to follow the 
Fiscal Year 2011 budget guidance on closing out Yucca, and that 
your direction was consistent with NRC's statute, OMB guidance 
and the Administration's decision to terminate Yucca?
    Mr. Jaczko. Yes.
    Senator Boxer. Did the IG find that your decision was a 
budgetary matter within your purview as chairman?
    Mr. Jaczko. Yes.
    Senator Boxer. Thank you.
    Chairman, I want to ask you a question off the political 
side of it. According to an article in the New York Times this 
morning, the Chairman of the NRC Task Force review said 
yesterday that past studies by safety experts in the U.S. have 
analyzed the risk of losing electricity from the grid or from 
onsite emergency generators, but not both at the same time. I 
understand this scenario, the loss of offsite electricity and 
onsite emergency generators, which happened in Japan, is that 
correct?
    Mr. Jaczko. Yes.
    Senator Boxer. That is referred to as a station blackout?
    Mr. Jaczko. Correct.
    Senator Boxer. So in light of what happened in Japan, will 
the NRC consider new regulations that will prepare nuclear 
power plants to better handle a station blackout?
    Mr. Jaczko. Well, ultimately that will be, I think, a 
decision for the Commission. But my personal view, I think this 
is an area where I suspect we are going to have to make some 
changes in the area of the regulations for station blackout. 
And I suspect that the Task Force will have some 
recommendations for us in this area.
    Senator Boxer. Is there agreement on the panel on that 
statement by the Chairman, yes or no?
    S. I will study carefully the Task Force's recommendations.
    Senator Boxer. OK, so you don't see a station blackout as a 
problem that needs to be fixed at this time?
    S. There are currently requirements to address station 
blackout. I look forward to the Task Force's analysis of the 
adequacy of the current requirements.
    Senator Boxer. OK. My understanding is there aren't, that 
what they deal with in the past are just losing electricity 
from the grid or from onsite, but not both at the same time.
    Mr. Apostolakis. No.
    Senator Boxer. That is incorrect?
    Mr. Apostolakis. That is incorrect, Senator.
    Senator Boxer. OK. Please correct the record for me, sir.
    Mr. Apostolakis. Station blackout means that you lose all 
A/C power, including onsite and offsite, and that there is a 
rule that the Commission has promulgated. So it was an issue 
that was addressed. But there are other questions that are 
coming up as a result of Fukushima. For example, in most power 
plants in the United States right now, the batteries which are 
supposed to provide the extra power when you lose both are 
expected to work somewhere between four and 8 hours. And the 
Japanese incident shows that you may have days or even weeks.
    So these are some of the things that we will have to think 
about how to address in the future. But----
    Senator Boxer. So you don't agree with the New York Times 
article where Charlie Miller, the chairman of the Task Force, 
said that studies by safety experts in the United States had 
analyzed the risks of losing electricity from the grid or from 
onsite emergency generators, but not both at the same time? You 
are saying you have had studies on this?
    Mr. Apostolakis. This is not a true statement, yes.
    Senator Boxer. OK, well, that is important. And we will let 
the New York Times know. Thank you.
    Mr. Chairman.
    Mr. Jaczko. Madam Chairman, I would say, I think the 
intention of that statement by the team was that when you are 
looking at the coping time, which is the important factor in 
the station blackout event, you have to make assumptions about 
how quickly you can restore that electrical power. So that 
historically has been done, they have looked at events in which 
you had the loss of the electric power from a minor disturbance 
in the electrical grid, and that would take a certain amount of 
time to restore that. That gets you to essentially that four to 
8 hours of coping time.
    But that idea of the simultaneity in some of the guidance 
gets really to the recovery and how long it would take to 
recover. We would make assumptions that you wouldn't 
necessarily both have catastrophically lost the use of the 
generators as well as catastrophically lost the offsite power.
    Senator Boxer. I see.
    Mr. Jaczko. So if you lost offsite power and the diesels 
didn't work, you would be able to get the diesels back in a 
normal time or the normal expected time for recovery of 
diesels. Or if it was the other way and the diesels weren't 
working, then you would have a normal way to recover the 
offsite power.
    Senator Boxer. So if I can get to what both of you have 
said, that you have looked at station blackout, but not for 
such a long duration?
    Mr. Jaczko. Correct.
    Senator Boxer. And I am assuming that Commissioners, you 
will look at, the last two, if you will look at this 
recommendation carefully, if there is one?
    Mr. Magwood. I agree. I just want to add one small thing. I 
think the Chairman characterized it correctly. But I think the 
Task Force is also interested in the fact that you could have 
what we would call a common cause failure, both offsite power 
and the onsite diesel generators. That is something that I 
think was a new thought for many people. I agree with others 
who said that is something we have to look at.
    Senator Boxer. Do you agree?
    Mr. Ostendorff. Madam Chair, I agree this is an area we 
need to look at.
    Senator Boxer. OK, very good.
    All right, Senator Boozman.
    Senator Boozman. Thank you very much.
    Again, I appreciate the hearing. I think it has been very 
helpful. I really do understand, I think the Country 
understands how important this agency is and I know you have 
your differences. But we do appreciate your working hard 
together to keep us safe.
    We have a nuclear plant in Arkansas run by Entergy, and 
they do a tremendous job. They are a great citizen and we are 
very proud to have the plant there, again, realizing that 
everyone working in harmony to make sure that these things 
function in such a manner that they not only produce cheap 
electricity and help us in that way but also again, we don't 
have to worry that we are not doing the very best that we can 
for the population.
    The only thing else I would add, I think that probably on 
the Yucca project, there were probably thousands of people that 
worked in a minor way. I think the idea that you, Ms. Svinicki, 
as a junior engineer, being there, working in whatever manner, 
the idea that somehow that laid the foundation for the Bush 
administration's decision 6 years later I think is a real 
reach. So we do appreciate you all. Certainly anything I can do 
to help, I will. I know the Committee feels the same way. And 
like I said, we appreciate your efforts. And I yield back.
    Thank you.
    Senator Boxer. Thank you very much, Senator.
    Senator Carper and then Senator Sanders.
    Senator Carper. Thanks, Madam Chair.
    I would like to come back to the issue raised by our 
Chairman about the batteries, the power batteries. It is my 
understanding that in Fukushima things were not that bad as 
long as the power batteries were working. And once, I think 
they had an 8-hour life, as I recall. But whether it was 8 
hours or four, the life of those batteries was used up. That is 
when something hit the fan, if I could. I am told that many, 
maybe most of our facilities, nuclear facilities in this 
Country, have the backup batteries of I think a 4-hour battery 
life. I don't know if they are all four, or if there are some 
that are eight. The thought occurs to me, we had a little 
discussion here already, but shouldn't we be looking at the 
requirements for the operating life of these batteries and 
extending that? Is there a place called A123, right there in 
Cambridge, Dr. Apostolakis, but A123, the battery folks, the 
batteries that are going to be in the Chevrolet Volt or are in 
the Chevrolet Volt. But our battery technology is getting a lot 
better as we go forward, particularly with electric powered 
vehicles. But shouldn't we be able to do a whole lot better 
than a 4-hour or 8-hour life battery in the future?
    Let me just ask that of the--I will just say Dr. 
Apostolakis, why don't you take a shot at that. And Mr. 
Magwood, would you take a shot at that question too, please?
    Mr. Apostolakis. Yes, you are absolutely right, Senator. 
This is something that we have to look into and take some sort 
of action. I don't know what that action would be. But clearly, 
a message from Fukushima is that 4 hours or sometimes eight is 
not sufficient.
    Interestingly enough, when the requirement of four or 
longer hour was put in place, it was actually a conservative 
estimate. They looked at the time it took to recover A/C power, 
the average was about 2 hours. So to be conservative, they 
doubled it. And now we have this accident that shows that it is 
very inadequate. So that is certainly something we have to look 
into.
    Senator Carper. Thank you, sir. Mr. Magwood?
    Mr. Magwood. Not long after Fukushima, when I was talking 
with experts on the staff about this, I was listening to the 
history of how the 4-hour coping time was decided. As 
Commissioner Apostolakis pointed out, the time was deemed to be 
conservative.
    I remember pointing out to the staff at the time that, I 
live in Montgomery County in Maryland. If I lost power for only 
4 hours, I would be thrilled. Because often, when I lose power, 
it is gone for 2 days. So I wondered, how in the world can you 
justify 4 hours.
    There is certainly a technical background for the 4-hours. 
But it is clearly something we have to look at.
    Senator Carper. All right. And the other side of this, not 
just the life of the batteries but also our ability to get 
additional batteries onsite where they are needed, fully 
charged. Is that something that we are considering?
    Mr. Jaczko. Senator, if I could say, I don't want to focus 
too much on the batteries. The focus really is to have the 
ability to have systems move water, or perform whatever safety 
functions. The way the current station blackout rule is 
written, the batteries, they don't, because of the way pumps 
are designed, they don't activate pumps. What the batteries are 
there for is instrumentation and sometimes valves or other 
control systems.
    So the most important issue is the restoration of 
electrical alternating current power. That is really the most 
important factor. So the batteries provide a way to cope. But 
that also requires some other system to do the pumping. So that 
is done with turbines that are driven by steam from the 
reactors.
    So there is lots of ways to look at this problem. It may 
not necessarily be a problem of coping and dealing with the 
batteries. But it may be, the better, more effective approach 
may be to have additional ways to provide alternating current 
power. That may in fact be more effective.
    So at this point, it is not clear exactly what the right 
way will be. But the real issue is to get the electrical power 
back, the alternating current power back. As long as you are on 
the batteries, you are in a coping mode and you are not in an 
ideal situation.
    Senator Carper. Well, we will look forward to you report 
back to us later this year to see how this all sorts out.
    One other thing. I spent, along with Captain Ostendorff, we 
both spent some time in the Navy, he was on submarines, nuclear 
submarines, I was on Navy P3 airplanes trying to find 
submarines. It was very easy to find those Russians, a lot hard 
to find our guys, which was actually reassuring. But we were in 
aircraft, and I know it is true in some ways you are given 
actually very realistic scenarios to follow. Training 
exercises, going after, in our case Russian submarines.
    We do, in nuclear power plants, in order to prepare for 
challenges with respect to plant security from hostile forces, 
or actually these force on force exercises in plants across the 
Country where we use good guys, our guys, to sort of take the 
role of bad guys and try to actually do force on force 
exercises. Pretty realistic. Nobody is shooting real bullets, 
but they are pretty realistic, I am told.
    Do you think we ought to maybe consider something similar 
for inspections and for regular emergency preparedness 
exercises, where plant employees are faced with different 
scenarios that are more realistic than maybe what we do today? 
And let me say, Mr. Ostendorff, Commissioner Ostendorff, 
Captain Ostendorff, will you take a shot at that? And Mr. 
Chairman.
    Mr. Ostendorff. Sure. I think the training and 
qualification and the demonstrated ability to carry out 
response actions is a piece of this. It is one thing to do a 
tabletop exercise, it is another thing to actually fight a fire 
in conditions of flooding where you are up to your knees in 
water where you maybe have very poor lighting, very poor 
ventilation. I think the training, qualification, command and 
control, direction on an individual reactor plant site are 
areas we should look at.
    Senator Carper. All right. Thanks. Mr. Chairman?
    Mr. Jaczko. I would just say, actually, the Commission has 
kind of maybe anticipated your question. We actually just 
finalized an update to our emergency preparedness regulations. 
And one of the cornerstones of that was to incorporate in our 
emergency planning exercises one, more realistic exercises. I 
would often comment that everybody knew when to order lunch, 
because we always knew there was going to be a lull in the 
exercise at around noon. So the exercises are in many ways kind 
of pro forma and everybody knows how they are going to play 
out. So one thing we have done is made them more, we are going 
to be making them more realistic.
    The other thing we have done is we have added what we call 
hostile action-based drills. So we are now going to incorporate 
in the exercise cycle precisely what you talked about, which is 
dealing with an emergency response when you have a security 
component as well. And the additional confusion and drains on 
communication and command and control, that can be 
accomplished. So it is actually something the Commission just 
finalized, and I think it is a very strong effort over the last 
really decade since September 11th.
    Senator Carper. Thanks.
    Madam Chair, I would just say, they are used to, in these 
exercises, having a lull and during the lull they have lunch. I 
am just wondering, when will they eat lunch now? I am sure they 
will find the time.
    Mr. Jaczko. We will find a way.
    Senator Boxer. OK. Senator Sanders.
    Senator Sanders. Thank you, Madam Chair.
    Mr. Chairman, you indicated during my last round of 
questioning that representatives of a major multi-national 
corporation, a $14 billion corporation, Entergy, which is now 
involved in a major and extremely important legal contest with 
the State of Vermont, met with staff at the NRC.
    Mr. Jaczko. That is my understanding.
    Senator Sanders. Do you think it is proper, in the midst of 
a major legal dispute, for proponents of Entergy to be meeting 
with the staff of the NRC?
    Mr. Jaczko. I would say, I think in the end, the best way 
to determine that is to see how the staff handle it. Our staff, 
I think, are very diligent and dedicated and focused on their 
responsibilities to safety. I think we have an effort to be 
open and to listen to concerns.
    Senator Sanders. But the issue in this lawsuit is not about 
safety. It is about the right of the State of Vermont, under 
the law, to not relicense a nuclear power plant. I am just kind 
of curious, if I can ask Ms. Svinicki and other members, have 
you been contacted by Entergy or the nuclear power industry in 
anyway, written, verbally, phone, personal meetings, about the 
Vermont Yankee case? Ms. Svinicki?
    Ms. Svinicki. I have not communicated with Entergy or any 
broad industry group regarding this particular litigation.
    Senator Sanders. Have they communicated with you?
    Ms. Svinicki. They have not. As the Chairman mentioned, 
there was a request to meet with commissioners. But that 
request was withdrawn based on, my understanding is the Justice 
Department had concerns, and so Entergy withdrew that request.
    Senator Sanders. What about representatives of the nuclear 
power industry?
    Ms. Svinicki. I have not had any meetings with 
representatives of the nuclear power industry on this 
litigation.
    Mr. Apostolakis. I have not either.
    Mr. Magwood. I have had no conversations.
    Mr. Ostendorff. Senator, I also was aware of a request to 
meet with commissioners. And that request, as Commissioner 
Svinicki mentioned, was withdrawn. I have not met with Entergy 
nor with members of the nuclear industry to discuss this 
matter.
    Senator Sanders. Nor any communications with them about 
this matter?
    Mr. Ostendorff. There was a communication that came through 
for a request to meet. We did not meet.
    Senator Sanders. Right. Thank you.
    What I want to do now is go to a very important Supreme 
Court decision dealing with the role of States in terms of 
nuclear power. Very important decision. I want to read it to 
you. It will take me a moment.
    Senator Boxer.
    [Remarks off microphone.]
    Senator Sanders. Thank you, Madam Chairman. It has to do 
actually with the State of California. This is what the Supreme 
Court said in ruling for a State, in this case the State of 
California, in 1983.
    My question, after I read this paragraph is, if you could 
comment on your feelings on this important decision. This is 
what the Supreme Court said in 1983. It said that ``The 
promotion of nuclear power is not to be accomplished at all 
costs. The elaborate licensing and safety provisions, and the 
continued preservation of State regulation in traditional areas 
belie that. Moreover, Congress has allowed the States to 
determine as a matter of economics,'' let me repeat that, ``as 
a matter of economics,'' not safety, my words, ``as a matter of 
economics, whether a nuclear plant vis-a-vis a fossil fuel 
plant should be built. The decision of California to exercise 
that authority does not in itself constitute a basis for 
preemption. The legal reality remains that Congress has left 
sufficient authority in the States to allow the development of 
nuclear power to be slowed or even stopped for economic 
reasons.''
    In other words, to my understanding, what the Supreme Court 
said in 1983 is, look, forget the safety issue. If a State, 
California or any other State, feels that there is another way 
to go forward that is better for the people of that State in 
terms of energy, maybe they want to buy power from Canada, 
hydroelectric power. Maybe they want to go sustainable energy. 
Maybe they want to invest in energy efficiency.
    From an economic point of view, the Supreme Court has said, 
they of course have that right. You can't push a nuclear power 
plant on people. It is not a safety issue. Let me go very 
briefly and ask members of the Commission if they would give us 
their view on that Supreme Court decision. Mr. Chairman?
    Mr. Jaczko. As I said, I think it should be very rare that 
the Commission is involved in preemption cases. There are 
clearly, and I think I have said this publicly, there are 
clearly areas that, where the States have authority and we 
should respect those authorities as we expect them to respect 
our authorities.
    Senator Sanders. Thank you. Ms. Svinicki.
    Ms. Svinicki. Senator Sanders, although I have not read the 
decision you were quoting from, I would agree in general with 
Chairman Jaczko that there areas reserved to the States. And I 
would note I began my career working for the State of Wisconsin 
at a utility commission. So I am aware of the States' role in 
economics.
    Senator Sanders. Just out of curiosity, Madam Commissioner, 
were you familiar with this Supreme Court decision?
    Ms. Svinicki. I have not read that decision. I believe I 
may know the one you are quoting from, but I have not read it.
    Senator Sanders. Well, it concerns me very much that you 
may not be knowledgeable about this decision. Because as I 
understand it, this Commission just voted yesterday on an issue 
very relevant to what the Supreme Court had to say.
    Mr. Commissioner, are you familiar with it? How do you feel 
about that?
    Mr. Apostolakis. I was not familiar with it, but what you 
just read makes perfect sense.
    Senator Sanders. Makes perfect sense. Do you think the 
State should have the right, from an economic point of view, to 
say no, we don't want a nuclear power plant?
    Mr. Apostolakis. Yes, I do agree.
    Senator Sanders. Commissioner Magwood.
    Mr. Magwood. Yes, I also am not familiar with that 
particular ruling, although I will read it when I get back to 
the office, I make that commitment. I agree generally, I think 
that there is clearly a reason we have a Federal Government. 
The States have a strong role in issues such as economics. And 
as you have described it, it seems perfectly reasonable to me.
    Senator Sanders. Commissioner Ostendorff.
    Mr. Ostendorff. Senator Sanders, I agree with the 
Chairman's statement. I would also comment that I am generally 
familiar with that case in the context of discussions I have 
had with our solicitor, with respect to this, the matter of 
Vermont Yankee. Our authority is not based on economics, but 
rather on nuclear safety.
    Senator Sanders. Right.
    Mr. Ostendorff. So preemption, however, where there may be, 
as, in a rare case, as Chairman Jaczko has mentioned, where 
there is an issue of potential nuclear safety issues being 
raised, then that is a situation that might warrant NRC 
engagement.
    I would like to, Senator, if I can also comment on a 
comment you made during the first round of questions on this 
topic, and the Chairman has appropriately characterized the 
Department of Justice's role in this matter as the litigating 
authority for the United States executive branch. I would just 
like to add that the comments to us, or discussions between the 
Department of Justice and NRC are not whether to intervene on 
the side of Entergy. It is a matter of whether or not the NRC 
has an interest in this case dealing with preemption issues.
    So I just wanted to maybe provide a different perspective 
on that.
    Senator Sanders. I am not so sure. I mean, the reality, the 
political reality is that the Department of Justice is going to 
have to make a decision. And I think it is quite understandable 
that they would go to you guys and say, NRC, what do you think? 
What do you think?
    But I want to get back to your first point, Commissioner 
Ostendorff, because, correct me if I am wrong, but I am hearing 
you say that if the issue is not safety, which certainly is an 
NRC issue, but the issue about whether or not a plant should be 
relicensed and kept open then in fact you do not see that as an 
issue that the NRC should be preempting the State on, is that 
what you are saying?
    Mr. Ostendorff. I want to be very careful here with my 
words, but I will answer the question, Senator, it is a very 
fair question to ask. This case is very complex. And I have had 
a chance to read briefings filed by both parties, and to be 
briefed on the status of the case.
    Senator Sanders. Who briefed you on the status of the case?
    Mr. Ostendorff. I talked to our solicitor, the solicitor 
for the NRC. He is our representative with the rest of the 
Federal Government, our interface with the Department of 
Justice. And as Chairman Jaczko mentioned, there are things we 
cannot discuss here today in this session. So each individual 
case has its own nuances, its specific details, its specific 
issues, contentions. As a safety regulator, our job is to 
ensure that nuclear power plants are operated safely.
    Senator Sanders. Right.
    Mr. Ostendorff. Whether or not there is a safety issue in a 
particular case depends on a lot of fact, a lot of details, a 
lot of arguments made by both parties to the case. And so I 
think it is hard to say in a particular abstract manner whether 
a particular case has a safety nuance or not.
    Senator Sanders. Let me try. If the people of the State of 
Vermont want to shut down a 40-year old plant that has had 
numerous problems, want to shut it down, not relicense it, not 
see it continue for years to come, why do you see that as a 
safety issue rather than an economic issue, perhaps, of the 
State to do that?
    Mr. Ostendorff. Senator, I appreciate the question. And for 
me to respond in that would be counter to what I have been 
advised by our solicitor.
    Senator Sanders. Thank you, Madam Chair, for giving me more 
time than I was originally scheduled to have. Let me just say 
this. First of all, I do appreciate, I think as I hear it, and 
somebody jump up and tell me if I am wrong, all of the 
Commissioners' understanding that States certainly under the 
Supreme Court decision do have the right for economic reasons 
to determine whether or not they want a nuclear power plant. 
Not a safety issue, an economic issue.
    Is there anyone who disagrees with that?
    Thank you very much, Madam Chair.
    Senator Boxer. I am going to followup just with a couple of 
quick questions. Commissioner Ostendorff, you just said in 
answer to Senator Sanders, I hope I heard you right, I want you 
to clarify if I didn't, that when there is a safety problem you 
have to listen to both sides. That is what you said, is that 
right?
    Mr. Ostendorff. I am not sure exactly what both sides--we 
are talking----
    Senator Boxer. Commissioner, can you read that back 
perhaps, what he said?
    OK.
    Mr. Ostendorff. I believe what I may have said, at least 
what I believe I said, Madam Chair, is that whether or not 
there is a nuclear safety issue, in the case Senator Sanders is 
referring to, requires hearing the perspectives of both parties 
to a case.
    Senator Boxer. Right. That is right. I want to talk----
    Mr. Ostendorff. I did say that, yes.
    Senator Boxer. I want to talk to you about that. Why is 
that the issue? Isn't the issue whether you find it is safe or 
not? I don't get that. I didn't get that. If that is your job, 
why do you listen to both sides? You need to have your staff 
ascertain whether it is safe or not, taking into consideration 
what both sides are saying. But I hope that is what you meant.
    Mr. Ostendorff. Well, certainly that is our job as a 
regulatory, Madam Chair. I don't dispute that at all. What I am 
trying to say in the context of Senator Sanders' question as to 
whether or not there is a safety issue that might warrant 
preemption issues being raised by the NRC, I think it is 
important for us to hear both sides of the question----
    Senator Boxer. It is.
    Mr. Ostendorff [continuing]. from all parties.
    Senator Boxer. But please tell me, don't you have the 
ability, I will ask the Chairman, to decide for yourself if a 
plant is safe or not safe?
    Mr. Jaczko. Absolutely. That is our responsibility and it 
is ultimately our decision. We strive as an agency to make sure 
that we listen to stakeholders so that we have informed 
decisionmaking. But ultimately it is our decision.
    Senator Boxer. But you are independent. You are 
independent. So when I hear you say, when there is a safety 
issue raised, we are going to hear both sides, that troubles 
me.
    Mr. Ostendorff. Madam Chair, I----
    Senator Boxer. I think hearing both sides is fine. But at 
the end of the day, you have to perform your own inspections. 
Am I correct on that? And that is what you do with your people, 
right? You send them out and say, look, one side says it is 
safe, the other side said they are scared. Can you come back 
and give us a review of what is going on? Isn't that what you 
would demand, Mr. Ostendorff, other than just listening to 
either side?
    Mr. Ostendorff. I would like to clarify this, Madam Chair.
    Senator Boxer. Please.
    Mr. Ostendorff. Thank you for the opportunity.
    Senator Boxer. Sure.
    Mr. Ostendorff. It is clearly our responsibility as 
regulators under the Atomic Energy Act to make the final 
determinations on whether a plant is safe or not.
    Senator Boxer. Good.
    Mr. Ostendorff. The question I was responding to with 
respect to Senator Sanders dealt with whether there is an issue 
being raised in this lawsuit of nuclear safety, or is it purely 
economics. The case that Senator Sanders was citing from the 
Supreme Court in California was dealing with an economic-based 
aspect. What I am saying is that on the decision that I can't 
discuss the details----
    Senator Boxer. Right, right, right.
    Mr. Ostendorff [continuing]. the Department of Justice, it 
is important for us as commissioners to hear and listen to the 
different briefs and our perspectives on how to vote, being 
informed by understanding both sides of the argument as to 
whether or not there is a preemption issue.
    Senator Boxer. OK. Well, I mean, I just have to say, and I 
want to commend all of you, first of all, for giving us your 
total focus and attention. There have been some tough moments 
here today. I think each of you has conducted yourself just 
very well and very sincerely.
    I want to compliment my colleague. I so identify with his 
fighting for his State. And I share his concerns about 
transparency and openness and intervening in a State's rights 
situation. I think that if a commissioner votes one way to say, 
we are going in, and I assume spending taxpayer dollars, would 
it not be? Taxpayer dollars to intervene in a suit, it ought to 
be a matter of the public's right to know. And I am sure each 
of you could eloquently defend your reasoning.
    So I would question all of you ducking this question, I 
think it is wrong. I think you ought to rethink it. All of you 
should meet and think about it. Think about it. It is too 
important. You need to be as transparent as you can be.
    I want to just close by saying, I looked through this 
really good book, The Information Digest, that you put out. I 
am sure all of you are very, there are very nice pictures of 
you in here. And it really lays out what you do. And I am 
struck by page 2, where you or your writers, and I am sure you 
have agreed with them, have highlighted the major function of 
this Commission in a very clear way. You took all of the law 
and you just synthesized it.
    This is what you said: Strategic goals, there are two, 
safety is first. Insure adequate protection of public health 
and safety and the environment.
    What a wonderful job you have. It is the way I look at my 
job. That is sacred trust you have. Sacred trust to the people 
of this great Country, so that we never get into a situation 
where because somebody might have done the wrong thing, we are 
dealing with a Japanese disaster. We just, we just can't do 
that. I keep thinking back to my two plants and all the people 
there who really, some of them don't realize how much their 
very well-being depends on you being vigorous on their behalf. 
I am going to be vigorous on their behalf. Senator Feinstein 
is. And others who, I am sure the Governor and all of us.
    But you have the power. You are independent. I can't tell 
you what to do, I can just urge you to do the right thing.
    Second, security. That is your second strategic goal. 
Insure adequate protection in the secure use and management of 
radioactive materials. So important. And that is why Yucca 
keeps being brought up, and I remember reading those reports of 
leakage and all kinds of problems there. And I have a county 
that just is right next door, which would get anything that 
leaked into the river. We would get it on our side.
    So I just want to close by saying thank you. This Committee 
cares a lot and we have different views. You saw them all 
today, and that is the beauty of America and democracy. I often 
say anyone watching us, every point of view is represented. And 
that is really what democracy is. Of course, some of us think 
our point of view is the right one. Each of us thinks that our 
ideas are the right one.
    But we will keep on overseeing the work you do. We wish you 
well. We hope that you as a Commission will be kind to one 
another, good to one another. Yes, there will be debates, there 
will be arguments. But life is too short to make them personal. 
That is just coming from me as a friend, as a Senator, as a 
mother, as a grandmother.
    So we need you to work together. Disagreements may abound. 
But at the end of the day, you have to work it out. Because you 
are in charge of safety and security for the American people in 
a very important way with these 104 plants. A hundred and four, 
is that right? Yes. Two of which are in my State, and I worry 
about.
    So worry about those a little bit, too.
    Thank you very much. We hope to see you again. We stand 
adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

               Statement of Hon. Jeff Sessions, Senator 
                       from the State of Alabama

    Thank you, Commissioners of the NRC, for appearing before 
our committee today.
    We have spent a lot of time in this committee and in other 
committees in Congress reviewing the earthquakes and tsunamis 
in Japan in March of this year and the implications for nuclear 
power in the United States. In fact, we have spent so much time 
on the nuclear aspects of this natural disaster that the public 
may overlook that at least 15,000 individuals were killed and 
nearly 8,000 were reported missing as a result of the 
earthquakes and tsunamis. Yet I am not aware of a single death 
or injury arising from the overheating of spent fuel stored at 
the Fukushima Daiichi Nuclear Plant. Certainly, there are 
lessons to be learned from the unusual events at the Japanese 
plants but it does not seem at this point that there are 
substantial reasons to call into question the overall safety or 
reliability of nuclear power in the United States. I look 
forward to hearing today about the preliminary results of the 
Commission's review of this incident.
    According to the North American Electric Reliability 
Corporation, the United States will need to add 135,000 
megawatts (MW) of new generation by 2017 in order to meet our 
economy's energy needs, but the amount of new generation 
currently planned to come on-line by that date is significant 
less than what will be required.1 America needs a comprehensive 
energy plan that increases domestic American energy production 
from a variety of sources--nuclear, oil, natural gas, 
hydroelectric, biofuels, and other sources of reliable energy 
that America can put to good use. Conservation has a very 
important role as well. America needs an energy policy that 
strengthens our national security by using more domestic 
energy, fosters economic growth by providing plentiful low cost 
energy, and protects the environment in an effective and cost-
effective manner.
    I read yesterday that Chairman Jaczko believes, as a result 
of the Japanese situation, the NRC should issue tougher new 
regulations. After a thorough review, some new safety 
requirements may be justified. But policymakers in Washington 
D.C. should not get ahead of themselves. An earthquake of 
historic intensity was centered very near a 40-year old nuclear 
facility that is located directly on Japan's Pacific coast. 
This caused Daiichi reactors 1 through 4 to experience a 
``station blackout''--that is, the facility lost all offsite 
power and the emergency diesel generators were flooded and 
inoperable as a result of the tsunami. As a result, the cooling 
systems did not function as designed. In the United States, 
nuclear plants already must demonstrate to the satisfaction of 
the NRC that the plant can continue to operate safely during a 
blackout scenario. Existing U.S. regulations also require 
multiple layers of redundancy to ensure safe operation.
    In Alabama, we saw a potential blackout event first-hand in 
April of this year when severe tornados occurred throughout our 
state, knocking out the power lines that fed offsite power to 
the Browns Ferry Nuclear Power Plant--the second largest 
nuclear power station in the U.S. The backup power systems at 
Browns Ferry responded as designed and there was no blackout or 
meltdown scenario. While there will certainly be lessons to 
learn from the Japanese experience at Fukushima, I believe that 
we need to remain firmly committed to expanding America's 
nuclear power fleet today. The new nuclear units currently in 
the licensing process contain safety features, such as gravity-
fed cooling systems, that would have been another safety 
redundancy that would have prevented the kinds of problems seen 
at Fukushima.
    That is the case with the Westinghouse AP1000 design. These 
new designs reduce reliance upon mechanical and electrical 
systems for cooling. As the NRC does its work in this regard, 
it will be critically important that the Commission has a full 
panel of commissioners, and I would continue to urge that 
Commissioner Ostendorrf, whose term expires at the end of this 
month, receives a confirmation vote on the floor of the Senate 
immediately.
    In my view, the Japanese situation should not lead us to 
push the pause button, especially for licensing new facilities 
in areas of the country not susceptible to the kinds of events 
that led to the Japanese disaster. Rather, I believe we need 
these newer, safer nuclear units to come on line as soon as 
possible. Nuclear power is a clean source of domestic energy 
that the American people support. It has an important role to 
play in reducing our dependence on foreign oil and reducing air 
pollutants. Nuclear power plants provide long term economic 
benefits, and the construction of new nuclear facilities 
creates new, high paying jobs.
    Finally, I am very concerned, Chairman Jaczko, about 
reports concerning your apparent decision to withhold important 
and relevant information about the Yucca Mountain matter from 
the other members of the Commission. I am also concerned about 
the way in which you exercised ``emergency powers'' in the wake 
of the Japanese incident. Both are troubling situations that 
merit a full review.
    Thank you. I look forward to our hearing today.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
